<html>
<title> - [H.A.S.C. No. 113-28]NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE DEPARTMENT OF THE NAVY</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]




                         [H.A.S.C. No. 113-28]


                                HEARING

                                   ON
 
                   NATIONAL DEFENSE AUTHORIZATION ACT

                          FOR FISCAL YEAR 2014

                                  AND

              OVERSIGHT OF PREVIOUSLY AUTHORIZED PROGRAMS

                               BEFORE THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                         FULL COMMITTEE HEARING

                                   ON

             BUDGET REQUEST FROM THE DEPARTMENT OF THE NAVY

                               __________

                              HEARING HELD

                             APRIL 16, 2013


                                     
[GRAPHIC] [TIFF OMITTED] 




                  U.S. GOVERNMENT PRINTING OFFICE
80-757                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001


                      COMMITTEE ON ARMED SERVICES

                    One Hundred Thirteenth Congress

            HOWARD P. ``BUCK'' McKEON, California, Chairman

MAC THORNBERRY, Texas                ADAM SMITH, Washington
WALTER B. JONES, North Carolina      LORETTA SANCHEZ, California
J. RANDY FORBES, Virginia            MIKE McINTYRE, North Carolina
JEFF MILLER, Florida                 ROBERT A. BRADY, Pennsylvania
JOE WILSON, South Carolina           ROBERT E. ANDREWS, New Jersey
FRANK A. LoBIONDO, New Jersey        SUSAN A. DAVIS, California
ROB BISHOP, Utah                     JAMES R. LANGEVIN, Rhode Island
MICHAEL R. TURNER, Ohio              RICK LARSEN, Washington
JOHN KLINE, Minnesota                JIM COOPER, Tennessee
MIKE ROGERS, Alabama                 MADELEINE Z. BORDALLO, Guam
TRENT FRANKS, Arizona                JOE COURTNEY, Connecticut
BILL SHUSTER, Pennsylvania           DAVID LOEBSACK, Iowa
K. MICHAEL CONAWAY, Texas            NIKI TSONGAS, Massachusetts
DOUG LAMBORN, Colorado               JOHN GARAMENDI, California
ROBERT J. WITTMAN, Virginia          HENRY C. ``HANK'' JOHNSON, Jr., 
DUNCAN HUNTER, California                Georgia
JOHN FLEMING, Louisiana              COLLEEN W. HANABUSA, Hawaii
MIKE COFFMAN, Colorado               JACKIE SPEIER, California
E. SCOTT RIGELL, Virginia            RON BARBER, Arizona
CHRISTOPHER P. GIBSON, New York      ANDRE CARSON, Indiana
VICKY HARTZLER, Missouri             CAROL SHEA-PORTER, New Hampshire
JOSEPH J. HECK, Nevada               DANIEL B. MAFFEI, New York
JON RUNYAN, New Jersey               DEREK KILMER, Washington
AUSTIN SCOTT, Georgia                JOAQUIN CASTRO, Texas
STEVEN M. PALAZZO, Mississippi       TAMMY DUCKWORTH, Illinois
MARTHA ROBY, Alabama                 SCOTT H. PETERS, California
MO BROOKS, Alabama                   WILLIAM L. ENYART, Illinois
RICHARD B. NUGENT, Florida           PETE P. GALLEGO, Texas
KRISTI L. NOEM, South Dakota         MARC A. VEASEY, Texas
PAUL COOK, California
JIM BRIDENSTINE, Oklahoma
BRAD R. WENSTRUP, Ohio
JACKIE WALORSKI, Indiana

                  Robert L. Simmons II, Staff Director
                Dave Sienicki, Professional Staff Member
              Phil MacNaughton, Professional Staff Member
                           Aaron Falk, Clerk


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2013

                                                                   Page

Hearing:

Tuesday, April 16, 2013, Fiscal Year 2014 National Defense 
  Authorization Budget Request from the Department of the Navy...     1

Appendix:

Tuesday, April 16, 2013..........................................    51
                              ----------                              

                        TUESDAY, APRIL 16, 2013
FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE NAVY
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

McKeon, Hon. Howard P. ``Buck,'' a Representative from 
  California, Chairman, Committee on Armed Services..............     1
Sanchez, Hon. Loretta, a Representative from California, 
  Committee on Armed Services....................................     2

                               WITNESSES

Amos, Gen James F., USMC, Commandant, U.S. Marine Corps..........     8
Greenert, ADM Jonathan W., USN, Chief of Naval Operations, U.S. 
  Navy...........................................................     6
Mabus, Hon. Ray, Secretary of the Navy...........................     3

                                APPENDIX

Prepared Statements:

    Amos, Gen James F............................................   126
    Greenert, ADM Jonathan W.....................................   101
    Mabus, Hon. Ray..............................................    57
    McKeon, Hon. Howard P. ``Buck''..............................    55

Documents Submitted for the Record:

    Charts from ADM Greenert.....................................   179
    CSBA charts..................................................   181

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mr. Bridenstine..............................................   190
    Mr. Langevin.................................................   185
    Mr. Rogers...................................................   186
    Mr. Wittman..................................................   187
FISCAL YEAR 2014 NATIONAL DEFENSE AUTHORIZATION BUDGET REQUEST FROM THE 
                         DEPARTMENT OF THE NAVY

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                           Washington, DC, Tuesday, April 16, 2013.
    The committee met, pursuant to call, at 10:08 a.m., in room 
2118, Rayburn House Office Building, Hon. Howard P. ``Buck'' 
McKeon (chairman of the committee) presiding.

    OPENING STATEMENT OF HON. HOWARD P. ``BUCK'' MCKEON, A 
 REPRESENTATIVE FROM CALIFORNIA, CHAIRMAN, COMMITTEE ON ARMED 
                            SERVICES

    The Chairman. Committee will come to order. Before we start 
today, I think it is only appropriate that we pause for a 
moment of silence in remembrance of the victims of yesterday's 
Boston attacks.
    [Moment of silence.]
    The Chairman. I know the thoughts and prayers of everyone 
in this committee and in this room are with the families and 
those of who have lost loved ones and those who have suffered 
injuries at this time.
    Thank you for joining us today as we consider the 
President's fiscal year 2014 budget request for the Department 
of the Navy. I appreciate our witnesses' testimony here today 
and their support of our naval forces. The Navy and the Marine 
Corps team continue to serve in a stressed environment. And in 
my estimation the fundamentals are unsustainable.
    The sustained surge that the Navy continues to employ to 
meet the combatant commander requirements have driven our force 
structure to the ragged edge. Surface ship deployments of 7 to 
9 months are the new normal. While the material readiness of 
our surface forces has shown some improvement over the last 
year, these improvements will be reversed as we begin to 
implement sequestration.
    As the Marine Corps they continue on a path of contraction, 
reducing to a force structure of 182,000 Marines. Their 
materiel readiness after a decade of war is at abysmal lows. At 
this force structure level and with this materiel readiness, 
the Marine Corps will be challenged to meet our global 
commitments. And make no mistake about it, these challenges 
will invariably lead to placing more and more of our service 
members at risk in future conflicts.
    Ironically, the sustained Navy force deployment model and 
Marine Corps force structure reductions will be further 
exacerbated with this administration's fiscal year 2014 budget 
request. Instead of adding ships and force structure to reverse 
this sustained surge, the Navy is preparing to accelerate the 
retirement of ships and reduce the combat force structure to an 
all-time low of 273 ships. This reduced force structure is in 
contravention to even their own goal of 306 ships and calls 
from the Independent Panel Assessment of the 2010 Quadrennial 
Defense Review to support a Navy force of 346 ships.
    And the Marine Corps continues their general reductions. It 
will be further challenged as diminishing budgets threaten red-
line determinations. Further aggravating this diminution of our 
force structure, Secretary Hagel has initiated Strategic 
Choices and Management Review that is expected to report out 
later this spring. This review will be used to inform the next 
Quadrennial Defense Review and will serve as a seminal document 
to inform other strategic documents and operational plans. Once 
again we are allowing our budget process to drive strategy, a 
dangerous direction for our Nation.
    My friends, our fiscal decisions have real consequences. 
Using the Department of Defense budget allocations as a tool in 
a grand budget bargain will only serve to further shrink our 
force structure. Our ability to project power in times of 
global instability will continue to atrophy. The risk that our 
marines and sailors will not return in times of future conflict 
will continue to grow.
    As America steps back, someone else will step forward. Now 
is the time for real leadership. I hope to do my part and 
reverse this general decline of our Navy and Marine Corps. I am 
pleased that our committee led the way during last year's 
legislative cycle and provided the authority to retain four 
cruisers in fiscal year 2013 that were slated for early 
retirement.
    I look forward to continuing this restraint on the 
administration to assure that our Nation is able to retain the 
program service life of our naval fleet. I understand that our 
committee, a reflection of our national ideals, is 
appropriately assessing the direction of our military. I think 
that we can lead from behind and quietly support weakening of 
our military, or we can seek to retain a military force that 
best serves the strategic interests of our Nation.
    I would urge the administration to share in my vision and 
ensure that our forces, if ever called to conflict, will not 
just win, but will strategically deter future aggressors from 
even trying to assess whether military conflict with the United 
States is a reasonable alternative. We cannot fail in this 
endeavor.
    Ms. Sanchez.
    [The prepared statement of Mr. McKeon can be found in the 
Appendix on page 55.]

   STATEMENT OF HON. LORETTA SANCHEZ, A REPRESENTATIVE FROM 
            CALIFORNIA, COMMITTEE ON ARMED SERVICES

    Ms. Sanchez. Thank you, Mr. Chairman. And again, thank you 
gentlemen for being before us, Mr. Secretary, Admiral, General. 
In the interest of time I am not going to read the entire 
opening statement that Mr. Smith had. But I would like to say 
that today we are looking at the budget, the President's 
proposal, which we believe is a responsible attempt to forge a 
grand bargain on the budget.
    Some are unhappy with it because it reflects about $119 
billion worth of cuts between years 2017 and 2023. First, let 
me remind you that this is a much smaller amount of cuts than 
under the current sequestration program. And secondly, the 
President's budget also allows Congress and the administration 
to work together to make those cuts in a more flexible manner 
than under the sequestration law that we live under right now. 
And I also remind this committee that there were many who voted 
for that Budget Control Act.
    So it is really important for us to work together to make 
sure that we have a strong military, to make sure that our 
national security moves forward in these very trying times. But 
it is our responsibility to work together to try to make sure 
that we put the right amount of money to make sure that we are 
looking at our people's need for this national security.
    Let me just say that I think we have to admit that we are 
not going to see increases in our defense budget in the coming 
years. Not under the financial circumstances that our country 
has. And we have been forced over the last 10 or so years, I 
believe, with two wars going on, to have seen pretty much, many 
increases.
    I mean we didn't want to be in a war. We as Congresspeople 
wanted to ensure, most of us, wanted to ensure that our men and 
women in the field had the monies that they needed to insure 
that we would do our, do their job, they could do their job and 
we could bring them back. And Iraq finished last year. 
Afghanistan is in the future of the next year for a finish.
    And so in particular, I want to thank our Navy and our 
Marine Corps, all of it, from the very top, all the way to the 
young woman or man who is just getting into the corps or into 
the Navy. And we will work very hard, I am sure in a bipartisan 
manner, in this committee to ensure that you have the right 
resources and that we have the right policies that we can move 
forward and believe that our country is positioned correctly 
for the future, Mr. Chairman.
    Thank you.
    The Chairman. Thank you.
    And without objection we will include Mr. Smith's total 
statement in the record.
    We have here today with us Secretary Mabus, Secretary of 
the Navy; Admiral Greenert, CNO [Chief of Naval Operations]; 
General Amos, Commandant of the Marines.
    Mr. Secretary.

       STATEMENT OF HON. RAY MABUS, SECRETARY OF THE NAVY

    Secretary Mabus. I always depend on CNO for all sorts of 
things and this, this shows that, so let me start over.
    Chairman McKeon, Congresswoman Sanchez, first of all, to 
the members of this committee, thank you for your support of 
the Department of the Navy, our sailors, our marines, our 
civilian employees and our families.
    General Amos, the Commandant of the Marine Corps, and 
Admiral Greenert, the Chief of Naval Operations, and I could 
not be prouder to represent those steadfast and courageous 
sailors, marines and civilians.
    No matter what missions are given them, no matter what 
hardships are asked of them, these men and women serve their 
Nation around the world with skill and dedication.
    In the past year, the Navy and Marine Corps team has 
continued to conduct a full range of military operations from 
combat in Afghanistan, to security cooperation missions in the 
Pacific, to disaster recovery operations in the streets of 
Staten Island. Sailors and marines have gotten the job done.
    As the United States transitions from two land wars in 
Central Asia to the maritime-centric defense strategy announced 
15 months ago, our naval forces will be critical in the years 
ahead.
    This strategy, which focuses on the Western Pacific, the 
Arabian Gulf and continuing to build partnerships around the 
globe, requires a forward-deployed, flexible, multimission 
force that is the Navy and Marine Corps, America's ``away 
team.''
    Within this strategy, we have to balance our missions with 
our resources. We are working in the Department under Secretary 
Hagel's leadership on our Strategic Choices and Management 
Review to assess how to deal with the budget uncertainty facing 
the Department as we go forward.
    He has directed us to review the basic assumptions that 
drive the Department's investment in force structure, to 
identify institutional reforms that may be required, including 
those reforms that should be pursued regardless of fiscal 
pressures.
    As he said during his testimony before this committee last 
week, ``Everything will be on the table.'' 2013 has been hard 
because we began the fiscal year operating under a continuing 
resolution that gave us little room to be strategic and to 
prioritize, limiting our ability to manage the Navy and Marine 
Corps through this new fiscal reality.
    Thanks to your efforts and your congressional colleagues, 
we have an appropriation for this fiscal year. But 
sequestration is still forcing us to make across-the-board cuts 
totaling more than $4 billion from our operation and 
maintenance accounts and about $6 billion from our investment 
accounts.
    These cuts will have real impacts. We have prioritized 
combat operations in Central Command and deployments to Pacific 
Command. However, we have had to cancel a number of deployments 
to Southern Command.
    In order to maintain our priority deployments in 2013 and 
2014 and meet the Global Force Management Allocation Plan, 
funding shortfalls will cause our units at home to cut back 
training and maintenance.
    Pilots will get less flight time, ships will have less time 
at sea, and marines will have less time in the field. It will 
take longer for repair parts to arrive when needed. Our 
facilities ashore will be maintained at a much lower level.
    The Department's 2014 budget request is a return to a 
measured budget approach, one based on strategy that protects 
the warfighter by advancing the priorities that I have referred 
to as the four P's: people, platforms, power and partnerships.
    We are working to make sure our people are resilient and 
strong after more than a decade of very high operations tempo 
with programs like 21st Century Sailor/Marine.
    With this, we aim to bring all the efforts on protection 
and readiness, fitness, inclusion and continuing with service 
together as a coherent whole.
    This encompasses a wide range of issues from preventing 
sexual assault and suicide to fostering a culture of fitness to 
strengthening the force through diversity, to ensuring a 
successful transition following 4 or 40 years of service.
    In the Marine Corps, we continue decreasing manpower to 
meet our new end strength of just over 182,000 by fiscal year 
2016, but we are doing this in a way which helps retain the 
right level of noncommissioned officers and field-grade 
officers and their experience. We are also working to make sure 
that our sailors and marines have the tools and the platforms 
they need to do the missions they are given. One of the most 
important of these is our fleet.
    On September 11, 2001, the U.S. Navy had 316 ships. By 
2008, after one of the largest military build-ups in our 
Nation's history, that number was 278. In 2008, the Navy put 
only three ships under contract; far too few to maintain the 
size of the fleet or our industrial base. Many of our 
shipbuilding programs were over budget or over schedule or 
both. One of my main priorities as Secretary has been to 
reverse those trends.
    Today, the fleet is stabilized and the problems in most of 
our shipbuilding programs have been corrected or arrested. We 
have 47 ships under contract today, 43 of which have been 
contracted since I took office, and our current shipbuilding 
plan puts us on track for 300 ships in the fleet by 2019.
    The way we power our ships and our installations has always 
been a core and vital issue for the Department of the Navy. We 
continue to lead in energy as we have throughout our history. 
From sail to coal to oil to nuclear, Navy has led in moving to 
new sources of power and each time it has made us a better 
warfighting force.
    Today, from marines making power in the field to 
alternatives on land, on and under the sea and in the air, the 
Navy and Marine Corps are powering innovations that will 
maintain our operational edge.
    Building partnerships, interoperability and capacity and 
capability in our partners is a crucial component of the 
defense strategy. The strategy directs that this be done in a 
low-cost, small footprint, innovative way. That is precisely 
what the Navy and Marine Corps do.
    The process we used to craft the Department's budget 
request was determined, deliberate and dedicated to our 
responsibilities to you and to the taxpayer. And like the House 
and Senate budget resolutions, we do not assume that 
sequestration will continue in fiscal year 2014.
    Mr. Chairman, the budget we are submitting supports the 
defense strategy, preserves the readiness of our people and it 
builds on the success we have achieved in shipbuilding.
    For 237 years, our maritime warriors have established a 
proven record as an agile and adaptable force. Forward-
deployed, we remain the most responsive option to defend the 
American people and our interests.
    Thank you very much.
    [The prepared statement of Secretary Mabus can be found in 
the Appendix on page 57.]
    The Chairman. Thank you.
    Admiral.

  STATEMENT OF ADM JONATHAN W. GREENERT, USN, CHIEF OF NAVAL 
                     OPERATIONS, U.S. NAVY

    Admiral Greenert. Thank you, Mr. Chairman, distinguished 
members of the committee. It is my pleasure to appear before 
you today to testify on the Navy's fiscal year 2014 budget and 
posture.
    I am honored to represent 613,000 Active and Reserve 
sailors, Navy civilians and their families who are serving 
today. This morning, I want to address three points: our 
enduring tenets for decisionmaking, our budget strategy for 
2013 and the subsequent carryover into 2014 and the course that 
we are on for 2014.
    Two important characteristics of our naval forces describe 
our mandate that we will operate forward where it matters and 
that we will be ready when it matters.
    Your Navy and Marine Corps are uniquely qualified to 
immediately respond to crises to assure allies, build 
partnerships, deter aggression and to contain conflict.
    Our fundamental approach to meeting this responsibility 
remains unchanged. We organize, man, train and equip the Navy 
by viewing our decisions through three lenses, or you can call 
them tenets, and they are warfighting first, operate forward 
and be ready.
    Regardless of the size of our budget or our fleet, these 
three tenets--these are the lenses through which we evaluate 
and we conduct each decision.
    Now, if you refer to the chart that I have provided in 
front of you, for each of you, you will see that on any given 
day we have about 50,000 sailors and about 100 ships deployed 
overseas providing forward presence.
    [The chart referred to can be found in the Appendix on page 
179.]
    Admiral Greenert. There are orange bowties on the chart and 
they represent the maritime crossroads. Those are the key 
straits, the key ``choke points'' some call them, where 
shipping lanes and our security concerns intersect.
    A unique strength of your fleet is that it operates forward 
from U.S. bases and they are represented on this chartlet by 
circles. You will recognize those.
    But there are places, and these are provided by partner 
nations, and they are represented by squares around the world.
    These places are critical to your Navy being where it 
matters because they enable us to respond rapidly to crises and 
they enable us to sustain forward presence with fewer ships by 
reducing the number of ships on rotational deployments. These 
places are important.
    Now, when I last testified to this committee in February, 
we faced, in the Navy, a shortfall of about $8.6 billion in our 
fiscal 2013 operations and maintenance account.
    Now, since then, thanks to the Congress' efforts, we 
received a 2013 appropriation in March. And, in accordance with 
our priorities and tenets, we plan to invest our remaining 2013 
operation and maintenance funds to take care of our must-pay 
items, such as payroll, leases, utilities.
    We will reconcile our 2013 presence with our combatant 
commanders. We will conduct training and maintenance for forces 
next to deploy and prepare to meet our 2014 Global Force 
Management Allocation Plan. That is our demand signal, that is 
our covenant with the combatant commanders. And we will restore 
critical base operations and renovation projects.
    Now, though we intend to meet our most critical operational 
commitments to the combatant commanders, sequestration leaves 
us with a $4 billion operations and maintenance shortfall and a 
$6 billion investment shortfall in 2013.
    And this is going to result in our surge capacity--the 
surge capacity of fully mission-capable carrier strike groups 
and amphibious ready groups, just to list the big ones--being 
reduced through 2014.
    Now, further, we will have deferred about $1.2 billion in 
facility maintenance as well as depot-level maintenance for 84 
aircraft and 104 engines and that is just representative of 
some of this deferral that we will have to do.
    When you consolidate operations and maintenance and 
investment shortfalls together, that leaves us with about a $9 
billion carryover that will go into 2014 and that is what we 
will have to deal with right away.
    A continuation of sequestration in 2014 is going to 
compound this carryover challenge and it will go from $9 
billion to $23 billion. That would be my 2014 challenge.
    Further, the accounts and activities that we were able to 
protect in 2013, such as manpower, nuclear maintenance, 
critical fleet operations, to name a few, they will be liable 
to reduction.
    Our people have remained resilient in the face of this 
uncertainty. And, frankly, Mr. Chairman, I have been amazed at 
our sailors and their civilians and their patience and in their 
dedication throughout all of this.
    Our 2014 budget submission supports the defense strategic 
guidance. It will enable us to maintain our commitments in the 
Middle East and our rebalance to the Asia-Pacific. Now, we 
prepared this budget with the following priorities.
    Number one, we have got to deliver the overseas presence in 
accordance with the Global Force Management Allocation Plan. 
That is my demand signal. That is my covenant to the combatant 
commanders.
    Number two, we will continue near-term investments, ones 
that we started last year with your help, and continue this 
year into next year to address challenges in the Middle East 
and the Asia-Pacific.
    And three, we will develop long-term capabilities, focus in 
on asymmetric capabilities, capabilities others don't have, at 
the appropriate capacity to address warfighting challenges in 
the Middle East and Asia-Pacific and other combatant commander 
areas of responsibility.
    Our budget submission continues to invest in the future 
fleet. We take care of our people. We build ships and aircraft, 
and we will invest in research and development for new 
technology. We have requested $44 billion in ships, submarines, 
manned and unmanned aircraft, weapons, cyber and other 
procurement, programs such as the SSBNX, that is the Ohio 
replacement [submarine] program, the Virginia-class submarine, 
the Joint Strike Fighter, Littoral Combat Ships, unmanned 
aerial vehicles of the tactical nature, DDG-1000 [USS Zumwalt], 
and the P-8 [Boeing P-8 Poseidon], just to name the highlights.
    These investments that will deliver a fleet, as Secretary 
Mabus said, of about 300 ships--of 300 ships in 2019. And these 
ships will have greater interoperability and flexibility when 
compared to today's fleet.
    We continue to fund important capabilities, such as the 
laser weapon system for small boat and drone defense, which 
will continue testing aboard the ship Ponce, here in the spring 
of 2014. We will deploy that soon. Also, in 2014, we will 
deploy on the aircraft carrier George Herbert Walker Bush, a 
successfully tested prototype system to detect and defeat 
advanced wave-combing torpedoes, a major vulnerability that we 
had reconciled.
    We continue to grow manpower, 900 in the net in 2014, as we 
focus on reducing our manning gaps at sea, as we enhance Navy 
cyber capabilities. And we will continue to address our 
critical readiness and safety degraders, sexual assault 
prevention, suicide prevention, sailor resilience, and our 
family support programs.
    So Mr. Chairman, your Navy will continue to ensure our 
Nation's security and prosperity by operating forward to assure 
access to the maritime crossroads. We are going to be present 
where it matters, and we are going to be there when it matters. 
This budget places our Navy on a course which will enable us to 
meet the requirements of the defense strategic guidance today, 
while building a viable future force and sustaining our 
manpower for tomorrow.
    We appreciate everything you and this committee have done 
for our sailors and our civilians and their families. And we 
ask, again, for your support in removing the burden of 
sequestration so that we can better train, equip, and deploy 
these brave men and women in defense of our Nation. Thank you.
    [The prepared statement of Admiral Greenert can be found in 
the Appendix on page 101.]
    The Chairman. Thank you.
    General.

 STATEMENT OF GEN JAMES F. AMOS, USMC, COMMANDANT, U.S. MARINE 
                             CORPS

    General Amos. Chairman McKeon, members of the committee, I 
am pleased to appear before you today to outline the 2013 
posture of your United States Marine Corps.
    I am equally pleased to be sitting alongside my service 
secretary, the Honorable Ray Mabus, and my good friend and 
fellow Joint Chief, Admiral Jonathan Greenert, the Chief of 
Naval Operations.
    For more than 237 years, your corps has been a people-
intense force. We have always known our greatest asset is the 
individual marine. Our unique role as America's premier crisis 
response force is grounded in a legendary character and 
warfighting ethos of our people. Today's marines are ethical 
warriors, forged by challenging training and made wise through 
decades of combat. You can take pride in knowing that as we 
gather here in this storied hearing room, some 30,000 marines 
are forward deployed around the world, promoting peace, 
protecting our Nation's interest, and securing its defense.
    Sergeant Major Barrett and I recently returned from 
Afghanistan and--and can attest to the progress there. Marines 
have given the Afghan people the vision of success and the 
possibility of a secure and prosperous society. I am bullish 
about the positive assistance we are providing the people of 
the Helmand province, and I remain optimistic about their 
future.
    Afghan's security forces have the lead now in most every 
operation we do. Our commanders and their marines assess the 
Afghan national security forces as over-matching the Taliban in 
every single way and in every single engagement.
    Speaking today as both a service chief and as a member of 
the Joint Chiefs of Staff, the foundations of the defense 
strategic guidance depends upon our regional stability and 
international order to underwrite the global economic system. 
Failing to provide leadership in the collective security of the 
global order will have significant consequences for the 
American people.
    Worse, a lapse in American leadership and forward 
engagement will create a void in which lasting security threats 
will be left unaddressed, and new security challenges will find 
room to grow. The reality of today's security environment 
reveals the value of forward naval presence. With declining 
resources to address the emerging security challenges, neo-
isolationism does not advance our Nation's national interest.
    Forward deployed sea-based naval forces do, however. They 
support our proactive security strategy while remaining capable 
of shaping, deterring, and rapidly responding to crisis, all 
while treading lightly on our allies and our partners' 
sovereign territory.
    Amphibious forces are a sensible and unmistakable solution 
in preserving our national security. Naval forces, and the 
Marine Corps, in particular, are our Nation's insurance policy, 
a hedge against uncertainty, a hedge against an unpredictable 
world. A balanced air-ground logistics team, we respond in 
hours and days to America's needs, not in weeks and in months. 
This is our raison d'etre. It has always been that way.
    This year's baseline budget submission of $24.2 billion was 
framed by our following service priorities. First, we will 
continue to provide the best trained and equipped marines and 
their units in Afghanistan. Second, we will protect the 
readiness of our forward-deployed rotational forces around the 
world. Third, we will reset and reconstitute our operational 
forces as our marines and equipment return from nearly 12 years 
of continuous combat. Fourth, as much as is humanly possible, 
we will modernize our force through investing in the individual 
marine first, and by replacing aging combat systems next. And, 
lastly, we will keep faith with our marines, our sailors, and 
our families.
    Ladies and gentlemen, your Marine Corps is well aware of 
the fiscal realities confronting our Nation. During these times 
of constrained resources, the Marine Corps remains committed to 
being responsible stewards of scarce public funds.
    In closing, the success of your marines and your Marine 
Corps is directly linked to the unwavering support of Congress 
and the American people. You have my promise that during our 
economic challenges, the Marine Corps will only ask for what it 
needs, not for what it might want.
    We will continue to prioritize and make the hard decisions 
before coming to Congress. We will continue to offer a 
strategically mobile force, optimize for forward presence and 
rapid response. Your Marine Corps stands ready to respond 
whenever the Nation calls, wherever the President may direct.
    Once again, Chairman, I thank the committee for your 
continued support, and I am prepared to answer your questions.
    [The prepared statement of General Amos can be found in the 
Appendix on page 126.]
    The Chairman. Thank you, very much. As I mentioned in my 
opening statement, I am concerned about the general force 
structure reductions in both the Navy and the Marine Corps. The 
Navy has proposed a force structure of 273 ships in fiscal year 
2014, and the Marine Corps continues to reduce their force 
structure to 182,000 marines.
    Admiral Greenert, General Amos, when Admiral Mullen said we 
needed to cut $465 billion, I think, he gave the chiefs goals 
and targets that they needed to work on that $465 goal--it grew 
to be $487 billion. But you had about a year to come up with 
the new strategy. And that strategy replaced the strategy we 
basically had since World War II, being able to fight two major 
structures at the same time, to where now we say we will fight 
one and hold one, I believe. That is the current strategy.
    But Secretary Hagel said, I think about 2 weeks ago, that 
we needed now, with these additional cuts of sequestration to 
come up with a new strategy. And I would like to ask both of 
you, in your best professional, military judgment, can you talk 
about any red-line issues that you will not be able to support 
during this review in the way of cutting the Navy from the 306 
goal, although I don't know when we would ever hit that goal, 
even, because we are much below that now and the 182,000 force 
structure of the Marine Corps.
    Could you, as you go through this process of coming up with 
a new strategy that Secretary Hagel has said we are going to 
have to come up with, could you tell us, at this point, any red 
lines that you will not be able to support?
    Admiral Greenert. Mr. Chairman, as I look at the numbers, 
and I think you are talking, assuming a sequestration, $500 
billion. First thing I do is, and most important, we provide 
forward presence. And it is--I can't provide--I cannot meet the 
current Global Force Management Allocation Plan with those 
numbers. So I don't know what number I would be at. It would be 
on the order of 30 ships, you know, as I look at a balanced 
reduction in that regard, less than the number of ships that I 
have today.
    So, let's say 250 ships if I am at 280 today. So when you 
take that and you just--and you look at what we have forward in 
our plans to go forward and what we rotate, it would be--I 
can't meet the Global Force Management Allocation Plan that I 
have today.
    But I would emphasize that our initiatives to operate 
forward, to forward deploy, to forward rotate, very important 
throughout all of this, because we get great leverage out of 
that. So number one, the Global Force Management Allocation 
Plan.
    Two, because I have to balance what the Navy in that 
regard, make sure I can meet the requirements today but build a 
future force, I worry about the industrial base. I worry about 
the ability to maintain two submarine builders so that we can 
have that competition. The same with destroyer builders, large 
surface combatants. The industrial base would be a great 
concern of mine. And I can't reconcile right now, today, how we 
maintain the industrial base that we need today to maintain the 
different ship types in that future. It is just something I 
haven't figured out yet.
    The Chairman. Let me drill down just a little on that. The 
$487 billion cuts that we are just starting to see, you could 
maintain those with that.
    Admiral Greenert. Yes, sir.
    The Chairman. But the sequestration pretty well wipes it 
all out?
    Admiral Greenert. Yes, sir. When you go from today, we look 
at where we are at today, and you say I want to know what your 
situation at roughly $50 billion for the next 8 years, 9 years, 
tell me about that. That is what I just commented on, Mr. 
Chairman.
    The Chairman. I think not everyone, not everyone 
understands. Of course the people on this committee do and I 
think most of the people in Congress. We have had the $78 
billion cuts with Secretary Gates and then the $487 billion, so 
what we are really talking about is this additional $500 
billion on top of that at the same time which reduces us over 
$1 trillion over a 10-year period while we are still at war. 
General.
    General Amos. Chairman, I can't give you specific red lines 
because we have just embarked on this strategic choices, the 
review, about 30 days ago. We have got another 30 days left. It 
is based on a $500 billion sequestration. It is the law so we 
are proceeding down that path. So it is yet to be seen 
precisely what the results of that will be, because each 
service, as we come out of this, the Secretary of Defense and 
the service secretaries will, along with us, will make a 
determination where the Department of Defense is going to 
weight its effort.
    My sense is that the President's strategy for the 
reorientation of the Pacific will probably remain a good 
strategy. I mean I support that. I like that. I think it is, I 
think I have said before this committee before, we are all a 
part of the development of that in support of the President and 
I still believe in it to this day. It is a function of how much 
you can do. It is a function of capacity. For instance, at the 
$500 billion it is not a matter of being able to do the same 
with less, and you are certainly not going to be able to do 
more with less. You are going to do less with less. I mean that 
is the reality of really $1 trillion worth of cuts. You lay 
that on top of the $200 billion worth of Secretary Gates's 
efficiencies and you are about $1.2 to $1.3 trillion out of the 
Department of Defense in the last, just in the last 2 years 
over the next 9 years.
    So we are going to do less with less. That doesn't mean we 
are going to do it poorly or we are going to do inadequately. 
We will do it to the very best we possibly can. So when you ask 
what the red lines are, for me, it focuses as I come down, you 
know I am headed to 182,100. Now that is a result of the Budget 
Control Act. So we are going from 202 down to 182,1.
    With the Budget Control Act, we can afford 182,100. It is 
not exactly the number that Secretary Gates approved and 
Secretary Mabus 2 years ago when we did our Force Structure 
Review. But it is adequate and we can live with that. What will 
happen with $500 billion is that force of 182,100 is no longer 
sustainable. So you are going to come down. I am going to come 
down some number below that. And I don't know yet how low that 
number is going to be. That number then will dictate the 
capacity to be able to be forward deployed, forward engaged. 
Those types of things that I talked about in my opening 
statement.
    The thing that concerns me the most is that at least a 
piece of the Department of Defense has to be that hedge force, 
has to be that crisis response force. I know I use that term, 
but America buys, people buy insurance for a reason, as a hedge 
against the unknown. That is what Admiral Greenert and I are, 
we are America's insurance policy. We don't know what is out 
there. We didn't know what would happen in Boston last night. 
We didn't know what was going to happen 3 weeks ago in Korea, 
in North Korea.
    We certainly aren't sure how things are going to turn out 
in Syria. So you need some portion of the Department of Defense 
engaged or deployed at a high state of readiness. And that is 
us. We go below 400--excuse me, 182,000 and we embrace the full 
$500 billion it is going to be, we are going to do less with 
less. There is going to be less of that.
    So I can't give you a red line Mr. Secretary, excuse me, 
Mr. Chairman, but I hope that answers your question.
    The Chairman. Red line may have been the wrong terminology. 
Maybe what I should have asked was what, this isn't a 
confrontational thing, it is based on, you are going to get a 
number and there are certain things you will be able to 
continue to do, certain things you won't be able to do. And I 
am hoping we can have a full discussion when we come up with 
that new strategy--when you come up with that new strategy, 
that it will include increased risks that we are going to have 
to assume and things that we will not be able to do going 
forward. Thank you, very much.
    Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    Again gentleman, thank you for your service and for helping 
us to try to understand where everything is. Let me ask you a 
quick question before I go to my prepared questions. I was out 
visiting several bases and commands during the break recently 
for the Congress. Visited several, a lot of Army, went to the 
82nd of course, 48 hours and they are on a plane somewhere 
going wherever we, you know, want them to or send them to.
    And it was very interesting because as I spoke to them, it 
became very apparent that in this year for this sequestration 
hitting them at their, at the real troop level, their cut was 
not what a lot of us on committee think, it is a 9 percent cut 
or it is a 10 percent cut. Mr. Chairman, but for them directly, 
the actual soldier that we put on the plane that is going to go 
and drop in somewhere, it was actually a 35 percent decrease 
this year.
    So my first question to you is what does it really mean to 
the marine on the ground? Has he seen this 10 percent coming 
in, readiness for the future, what have you? Or are they seeing 
even deeper cuts because the further away you get from the 
Pentagon it seems, the more gets cut out of the budget.
    General Amos. Congresswoman, that is a great question and 
each service approaches this just a little bit differently 
depending on what their responsibilities are with readiness. 
For instance, in the last about 3 months, I have moved those 
operations and maintenance funds that I had available to me, 
that I had the authority to move, I pulled them out of other 
accounts, maintenance accounts, sustainment accounts, and some 
training accounts for operational units, and pushed them into 
units that are poised and getting ready to deploy next.
    Some are getting ready to go into Afghanistan, some are 
getting ready to go on our ships. The Marine Expeditionary 
Units, some are getting ready to go around the world to various 
things. So their readiness, if you were to go to them, they 
would probably not see the difference. But if you went to their 
sister unit next door, or across the base, they would be 30, 40 
percent down, the way that the 82nd is, the way you have 
described it. Because we have taken their readiness money, 
their training, their ammunition, their deployment to 
Twentynine Palms to train and prepare. We have taken that money 
away from them to prepare, to insure that those forces that are 
next to go, are in fact ready.
    So that is why I say each service is a little bit 
different. Our next-to-go forces are ready, probably wouldn't 
see a difference. But boy I tell you what, you go across the 
base, and you are going to see the 30 to 40 percent.
    Ms. Sanchez. Admiral, any comment to that?
    Admiral Greenert. Yes ma'am a little perspective if you 
will, in our operations account. It is roughly a $40 billion 
account. And when we were, when we looked at the challenge for 
sequestration and the continuing resolution, that is about $9 
billion. So of the $40 billion account, $18 is either exempted, 
kind of fenced, or already spent. So you are looking at $22 
billion, that is where the money was. And you got about $9 
billion. So 9 divided by 22. That is what it looks like in many 
of those accounts.
    So if you are the sailor that as maybe as Commandant 
mentioned, maybe the sailor that had deployed maybe recently, a 
pilot. Say what is new in your world? He says simulators. I 
just go to the simulator today because I am not flying. At all. 
And we had that for a period of time. Now we are off of that. 
Some ships we had to say, well you are not next to deploy, as 
the Commandant said, you are tied up. And so they go through 
routine training. And to them, it is a different world from 
what they are used to.
    Ms. Sanchez. Mr. Chairman it is just, I think we really 
need to have a discussion among ourselves here before we talk 
to the rest of the Congress. Just about what this really looks 
like. Because it is one thing on paper but I think at the real 
operational level it is astounding some of the things that I 
heard. I really want to get, I don't want to take a lot of 
time, but I want to get to my main question that I had 
prepared.
    It deals with, gentlemen, women in combat. So Secretary 
Panetta and the Joint Chiefs of Staff unanimously said, you 
know, I think Secretary Panetta at the time, put it best when 
he stated that not everyone will be a combat soldier but 
everyone is entitled to have a chance. And of course I have 
been advocating for that for a very long time.
    So I am confident that between Congress and the Department 
we can make the right steps. It is my understanding that the 
services are required to implement, to have an implementation 
plan no later than May of 2013, so can you provide this 
committee with an update of where that stands? Are you going to 
meet that deadline? What are the steps that you are taking 
towards opening some of those positions? And can the Congress, 
how can the Congress help you to ensure that we get the plan in 
place, that we go through the implementation as you see as it, 
as you have been talking and trying to deal with the new 
reality?
    General Amos. Congresswoman, thank you for the opportunity 
to talk about this. I think it actually is good news and I 
would like to walk you through it. I am in agreement with you, 
we have had women in combat now for 12 years, probably before 
that in some areas that we are completely unaware of. So women 
risking their lives and their being out in the front is not 
new.
    We have got everything you said, with Secretary Panetta, we 
are on track, the service Chiefs are. We are in the United 
States Marine Corps. We have 335 what we call primary military 
occupational specialties. I am a pilot, I am a 7523, or at 
least I used to be, F-18 pilot. So that is my MOS [Military 
Occupational Specialty]. If you are an infantry officer you are 
an 0302, if you are an intel officer you are an 02. So we have 
got 335 of those; 303 of those right now are absolutely, 
completely open to women.
    So there is 90, 90.4 percent of all our occupational jobs 
are open to women. We had about 10 major units, amtracs 
[assault amphibious vehicles], our assault vehicles, artillery 
tanks, air naval gun liaison, and light area defense. We had 
these kinds of units and infantry and reconnaissance that are 
the primary units that are closed--been closed historically to 
women.
    We have opened up all of those for all intents and purposes 
with the exception of infantry and reconnaissance. And we are 
doing some work on that, and I will talk about that in just a 
second.
    But what we have done is we have gone back through and we 
said, ``Okay, let's go and let's take those jobs that are 
already open to women but in other kinds of units, in aviation 
squadrons and units, let's put them in there first. Let's put 
the leadership in there, the officers and staff, NCOs 
[noncommissioned officers]. And let's put them in there first, 
and they will kind of--they will kind of seed the bed, so to 
speak, and provide--excuse me, provide intermediate-level 
leadership so that when we start bringing our youngsters in, 
the ones right out of boot camp, they will have leadership in 
there. They will have a cohort. They will have role models and 
that.''
    So we have done that right now with the exception of 
infantry and reconnaissance. And what we are doing now in the 
rest of those, the other remainder of those MOSs that are 
closed, 32, we are developing standards right now. And we 
should have those done, the goal is to have them done by the 
end of this June.
    So they will be--what we are really talking about is 
physical standards. Most of our MOSs don't require anything 
more than our combat fitness test or our physical fitness test. 
I mean, to be the administration--being a fighter squadron, you 
just have to be able to pass the PFT [physical fitness test] 
and CFT [combat fitness test].
    But if you are a tank gunner, then you really actually have 
to be able because you are in a tight spot. You actually have 
to pick up a, almost a 60-pound round that is behind you and 
turn it around and rotate it, shove it in the breach of a tank, 
and nobody can help you, because you are in there all by 
yourself in that part of the tank. So we are developing those--
those physical standards and those 32 other MOSs.
    Quite honestly, we haven't had those before. We have just 
said, ``Okay, guys, you just go to them,'' and--and some guys 
can't do it. And those guys we actually--they drift off to the 
barracks and they hand out sheets and they take care of the 
barracks and manage those kinds of things.
    To do what we want to do now, to set our females up for 
success, not to keep them out, but actually to, as much as you 
can, guarantee success, we are developing those standards, and 
they are going to apply to guys and gals all--that is what we 
will have developed by this June. We are going to test those 
for the rest of this year. And then our plan is to implement 
them in January of next year.
    So that will actually set the conditions to open up 
basically everything in the Marine Corps with the exception of 
infantry and reconnaissance. And what we are doing on infantry, 
and, I believe you are aware, is we have our infantry officers' 
course down at Quantico. We have opened that up for our female 
lieutenants to go through. We have had four. We only get about 
150, 140 lieutenants a year--female lieutenants a year in the 
Marine Corps. We are pretty small.
    And so far we have had four volunteers. They, along with 
probably about 40 or 50 males, did not make it through. We have 
another course that starts in July. We have five female 
lieutenants who will be graduating from our officer basic 
school down in Quantico. And we are excited about them 
starting.
    So I just need to get enough information in that area to be 
able to make, to my Secretary, a reasonable, you know, 
analytical recommendation, instead of just some hyperbole 
stuff. So I actually feel pretty good about where we are going. 
We are setting the conditions. And, I think, we are headed 
exactly where perhaps you would like us to go.
    Ms. Sanchez. Great.
    Thank you, Mr. Chairman. With that, I will end my turn.
    The Chairman. Thank you.
    Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman.
    Gentlemen, I have tried over the last 4 years to join my 
voices with--my voice with those who realized the massive cuts 
we have made to our national security over the last 4 years 
have been dangerous and unwise. But I am not going to revisit 
those battles this morning.
    Mr. Secretary, given these cuts and the dangerousness of 
the world in which we live, it is crucial that we have a viable 
partnership between this committee, your office, and the fine 
men and women who build and repair our ships. And we look 
forward to building and maintaining that partnership.
    Admiral, I think it would be fair to say that the last 
decade we asked a disproportionate sacrifice to our men and 
women who served in the Army and the Marine Corps. But with the 
reduction in land-based facilities, and the rising lethality of 
some who do not wish us well, I think, the next several decades 
we may ask a great deal more of our seapower and projection 
forces.
    And one of the most important components of that power will 
be our carrier air wing. So I want to focus my time on the 
planned composition of the carrier air wing today. You know, it 
has been argued that Iran and China are making major 
investments in capabilities to counter the Navy's surface 
forces, in aircraft carriers, in particular. And if this is 
true, it would be a significant departure from past planning 
assumptions that maintain that the U.S. would be able operate 
in permissive environments where regional adversaries could not 
hold our carrier strike groups at risk.
    I want to put up a chart if we have it. And I think we have 
given you a copy of it. These two charts are CSBA [Center for 
Strategic and Budgetary Assessments] charts. And I know these 
are approximate ranges, and I don't want to argue, 
particularly, the numbers, but I--under the guise of ``a 
picture is worth 1,000 words,'' if you look at this first chart 
on Iran, it shows that our strike capability for our carrier 
groups would really only reach about a third of the land space 
in Iran.
    If I could shift to the next chart, this one would show, 
based on the DF-21D [Dong-Feng anti-ship ballistic missile] 
published reports that has about 810 plus or minus nautical 
miles, as a stand off. If you look there, our F-18s and our F-
35s really couldn't even reach China's soil unless we were 
prepared to put our carriers in a very dangerous position.
    [The charts referred to can be found in the Appendix 
beginning on page 181.]
    Mr. Forbes. So my question for you, Admiral--I mean, 
Admiral, is, given the developments in Iran and China's defense 
strategy over the last 10 to 15 years, is the future carrier 
air wing properly balanced between range, persistence, stealth, 
and payload for both sea control and power projection missions? 
And what kind of questions are you going to have to be asking? 
And how can we help you with that?
    Admiral Greenert. I think, the carrier air wing, Mr. 
Forbes, in my mind, is balanced. And what we need is, we need 
range. We need payload. We need electronic warfare capability, 
electronic attack capability, and we need stealth. And the air 
wing and air operations of tomorrow are carrier air wing, but 
with the arrival of the fifth generation, the F-35B, we will 
also have Marine air with that component to help supplement. 
So, I think, in my conversations and dependent on the--what 
operation it is, we keep that thought in mind for both.
    But what I am talking about is the range. The range piece 
is important, and you have got to get--you have got to have 
access. So refueling is important. What am I talking about? I 
am looking at an air wing of the future of a Hornet, an F-35 
Charlie, a UCLASS, which is unmanned carrier-launched aerial 
surveillance and strike. And that--my view, and as we have laid 
this out, that can provide surveillance, as well as strike, as 
well as refueling capability. We can't, as you have shown up 
here on that chart, you have got to get there. And you have got 
to get back. And you have got to have enough fuel.
    So all of these are important. The electronic attack, I 
wouldn't underestimate the importance of that as we look at the 
threat out there today and in the future. And that is the 
Growler, the EA-18G, as well as the F-35 Charlie.
    So, Congressman, we need all of that. It has to fit 
together. It has to work together on the carrier of the future. 
No one aircraft is going to do it all as we look out in the 
future.
    Mr. Forbes. And, Admiral, we appreciate that. We want to 
look forward to working with you on that. We know that is 
important. And, also, I appreciate you talking about the 
UCLASS. I think, that is going to be important to give you the 
range that you are going to need. And we want to help you with 
that, too.
    With that, Mr. Chairman, I yield back.
    The Chairman. Thank you.
    Mr. McIntyre.
    Mr. McIntyre. Thank you, Mr. Chairman. And thanks to all of 
you for your great commitment and service to our country.
    Mr. Secretary, you have been a pioneer in biofuels for the 
U.S. Navy. And I greatly admire your work to make sure our 
national defense is not dependent upon foreign sources of 
energy. And I know in your testimony on page 33, you mention 
that the Department continues to develop drop-in advance 
biofuel initiative for our ships, aircraft, and shore 
facilities. And then you mention the Department of the Navy 
working with Departments of Agriculture and Energy. I know, as 
a senior member of both this committee, but also of the 
Agriculture Committee, the great work that you have done to 
pursue this course of action.
    I also notice on page 33 of your testimony, you state that 
there are no changes to our engines, aircraft, ships, or 
facilities needed to burn this type of fuel. And so, my 
question is, given the declining resources available to the 
services, how does the 2014 budget contribute to the Navy's 
efforts to continue to achieve these goals, in terms of 
biofuels, so that you can continue to pursue this course?
    Secretary Mabus. Thank you, Congressman, and thank you for 
those words on making us better warfighters through the way we 
use power.
    And the first thing that you said is absolutely true. The 
big news about using alternative fuels is there is no news, 
that we use the same logistics chain. We don't change a single 
engine. We don't change anything about it. We simply put it in 
and burn it with normal avgas [aviation gasoline] or marine 
diesel.
    The--I think, in these budget-constrained days, it is more 
important than ever to search out alternatives to our current 
way we buy fuel. In fiscal year 2012, the end of it, the Navy 
got an additional $500 million bill for fuel. This year, we are 
looking at an additional $600 million bill for fuel just 
because we have--the amount that oil went up was 
underestimated. Oil is the ultimate global commodity.
    And so, I think it would be irresponsible of us not to try 
to find a competitive, drop-in fuel that can--can do this. And 
our 2014 budget and the budget stretching out beyond that gives 
us that ability. And--very much appreciate the support of this 
committee and of Congress in doing that, because it allows us 
to have a home-grown source of fuel that is not as susceptible 
to the price shocks that--Admiral Greenert talked about these 
choke points of some--somebody threatens to close the Straits 
of Hormuz and the price of oil goes up $10, $20, $30 a barrel.
    Every time it goes up a dollar, the U.S. Navy and Marine 
Corps are looking at $30 million per dollar increase in 
additional fuel costs. So I think we are well on our way. I 
think we know where we need to head. And again, I appreciate 
the support of you and this entire committee and Congress in 
making sure this comes true.
    Mr. McIntyre. Well thank you. Thank you for your forward 
thinking on that. In the remaining few seconds I have, General 
Amos, I am glad you mentioned the commissioning ceremony coming 
up at Quantico this Friday. I plan to be there to see that 
ceremony with some folks I know involved in that. And I have 
followed closely your training for the infantry and for those 
new commissioned officers.
    I wanted to ask you, does the Marine Corps have the 
resources you feel to meet its needs for the F-35B STOVL [short 
take-off and vertical landing] version of the Joint Strike 
Fighter? Are the problems you feel like with the lift fans 
resolved? And do you feel like the Marine Corps is being able 
to adjust to the potential shortfall given the budget problems 
in the production of the F-35Bs?
    General Amos. Congressman, I feel pretty good about where 
we are right now. We have worked pretty hard as you know, in 
the last several years to fix those couple things that the F-
35B that ended up on probation. Of course it has been off of it 
for over a year now and it is doing well. So I do feel good. I 
think the procurement rate, we have adjusted that as a result 
of fiscal reality.
    But we have laid that in over the lifetime of our current 
fleet of F-18s which are Legacy Hornets and our Harriers and we 
are managing that lifetime so that we will be able to bring in 
those F-35Bs as long as we are able to maintain a reasonable 
production, a sustainable, reasonable production rate.
    So I do feel good about it. I think the airplane is doing 
well. We have got 15 airplanes now. F-35Bs in the training 
squadron down at Eglin Air Force Base. It is a combined 
training squadron with us and the U.K. They have got two of 
their airplanes in there. We are training their pilots. And we 
just stood up last December, the very first fleet squadron out 
in Yuma, Arizona, VMFA [Marine Fighter Attack Squadron] 121.
    So they are there. They have got four jets, by the end of 
this year they will have 16. They will be what we call initial 
operational capable by probably the third, maybe June, excuse 
me July or August of 2015. And we are scheduled to deploy which 
means they will be combat ready by the way, by then. And they 
will be ready to deploy or scheduled to deploy in 2017. If 
something happens around the world prior to 2017, this will be 
the only fifth generation airplane America has ready to go in 
an operational squadron. So I feel very good about it. We have 
been resourced and taken well care of by our bosses.
    Mr. McIntyre. Thank you, thank you General.
    The Chairman. Thank you very much. Mr. Miller.
    Mr. Miller. Thank you Mr. Chairman. Is it my understanding, 
it was either Mr. Secretary or Admiral, one of the two, you had 
made this comment in regards to your budget request assuming 
that sequester will be resolved by 2014? Is that what I 
understand?
    Secretary Mabus. Congressman, what I said was that we put 
our fiscal year 2014 budget request in without sequestration, 
exactly the way that the budget resolution of Congress, of the 
House and of the Senate, did the same things. As we were 
developing that fiscal year 2014 budget request, it was prior 
to sequestration taking effect and as the Admiral said so 
eloquently, if sequestration stays, we are facing some serious, 
widespread problems, particularly in 2014.
    Mr. Miller. I think it is here. And I think it would 
behoove everybody to plan for it to go beyond 2014, because 
obviously there are wide differences between the House and the 
Senate as to how we resolve the budget issue out there. The 
House wants to do it through cuts, the Senate wants to do it 
through tax increases. Everybody wants to figure out a way to 
turn it off. I am hoping that the Navy is planning for having 
it as well as not having it.
    Secretary Mabus. Well this is part of the Strategic Choices 
and Management Review that we are undertaking in DOD 
[Department of Defense] right now, is for that range of 
options, ranging everything from full sequestration to no 
sequestration and how that will affect what all the services do 
and what we are able to do.
    Mr. Miller. Thank you, Mr. Secretary. That is all, Mr. 
Chairman.
    The Chairman. Thank you. Mrs. Davis.
    Mrs. Davis. Thank you Mr. Chairman, and thank you to all of 
you and thank you so much for your great leadership. It is 
appreciated by the men and women, I know, that you work with 
and serve with as well as all of us here.
    Admiral Greenert, you mentioned the four areas that really 
detract as you said, and really make the bringing the vision 
forward difficult. And among those are sexual assault and 
suicide in the military. And I know there has been a great deal 
of focus. I want to particularly thank General Amos for his 
passion in trying to address the sexual assault area.
    But one of the things that we know about that is we have a 
number of civilian employees who are very actively involved and 
have been counted as partners as you work with this issue. How 
do you see the effect of sequestration on your efforts? Because 
with all the cuts that we are experiencing it is difficult to 
see how we might be able to sustain the increases actually that 
you are planning for in these areas. If you could address and I 
don't know, Admiral, if you want to address that and others. 
How we do that in those two areas.
    And the other thing I wanted to focus on just briefly, is 
how you believe that our partnership capacity is also 
undermined through our civilian furloughs and some of the cuts 
that we are seeing. How are we viewed by others as we move 
forward to try and address many of these concerns that you are 
talking about in terms of our, whether it is the rebalancing or 
the activities that we have in theater where we are partnering, 
where we are doing exercises, how do you see that being 
affected?
    Admiral Greenert. If I may ma'am I will answer the last 
question first and then get to that. We spent a good bit of 
time talking with our partners. I was at the U.K. this week. 
Tonight I am leaving for France to talk to my counterpart and 
in 2 weeks I am going to the Asian-Pacific region to speak to 
many of it. And the whole idea is just to lay out for them what 
the situation is, and the significance.
    I gave you the chartlet and then I give them the chartlet. 
I say look, we will be forward, we will be in theater. What we 
are doing with exercises, ma'am, we are doing the exercises, 
all of them, internationally. But we are having to craft them 
in a different manner. There will be somewhat less. And we do 
what is right and what resonates with both of us.
    As we move to fiscal year 2014, we will look at it again 
with the combatant commanders and say, hey which of these is 
most important and let's make sure we do those right. So that 
is, the international piece is a big focus of ours. But we have 
to communicate and relate with them.
    Mrs. Davis. Are we seeing our partners trying to pick up 
some of the perhaps the roles that we have been playing in the 
past?
    Admiral Greenert. In some cases we are. In the case of say 
ballistic missile defense, there are two aspects to that. 
Someone has to look for the ballistic missile, somebody has to 
protect the force. They are picking up the I will protect the 
force ASW [anti-submarine warfare] exercises, we do see them 
pick up. Especially in the Asia-Pacific region, Korea, Japan, 
very interested in that regard, Singapore and Australia as 
well.
    If I may, the civilians, the sexual assault response and 
counselors are, and what we call upper tier, which means we 
want to exempt them from furlough. We will continue those 
hirings which we have committed to. As we move into fiscal year 
2014, Family Readiness Programs, Sexual Assault Programs, my 
high priority. I would not, I would endeavor at every 
opportunity I can, not to reduce that. I have to get that right 
ma'am.
    Mrs. Davis. Thank you.
    Secretary Mabus. I want to reiterate that, Congresswoman, 
because this is a threat, this is a direct threat to our force, 
to our readiness, to everything that the force does and stands 
for. You know that General Amos, Admiral Greenert and I, if you 
ask if we are concerned about sexual assault, our answer is we 
are not concerned about it, we are mad about it. And we are 
going to get something done about it. I think we are beginning 
to learn what happens. And we can't afford to pull back against 
any threat but particularly one that is this insidious and 
internal.
    General Amos. Congresswoman, we sat down to work through 
the effects of 2013 continuing resolution and sequestration, 
all of us began to rebalance where are we going to, where is 
our least priority, where is our highest priority. And in our 
service just as Admiral Greenert said, we are exactly the same. 
We took those programs, sexual assault, what we, in my service 
we have kind of begun to understand it is kind of all knit 
together under kind of behavioral health. All those things that 
deal, that are so critically important to the health and 
wellbeing of our corps. We put those to the top. So they are 
the last to go. And we are going to do our very best to not 
affect that. We can't allow that, it is Wounded Warriors. They 
are up there, too. So we have to, we have to maintain that. So 
that means that some of the operational readiness, combat 
readiness will begin to get, we will pay for that to be able to 
keep those capabilities with some operational readiness as we 
start echeloning our way up as sequestration takes full grip 
next year.
    The building partnership capacity is training, it is 
building trust, it is relationships, it is working with our 
allies, it is reassuring. Those are the things that quite 
honestly, we do as a naval force because we don't have a big 
footprint when we go someplace. We can often operate from the 
sea. That is going to be affected. It is yet to be seen exactly 
how much we work with the combatant commanders in their 
theaters to determine where their greatest priority is.
    But I mean I lost, the next year, under sequestration I 
will lose almost $700 million in operations and maintenance 
funds. So I am going to have to take some of this is going to 
have an effect on these forward-deployed forces building 
partnerships and building relationships.
    One last point on this thing, we have reoriented in 
accordance with the strategy more infantry battalions to the 
Pacific. In fact this fall, we will put our fourth infantry 
battalion in the Pacific. Having started with only one over 
there. We will have our fourth one, so we are actually, we are 
heavily invested. Sequestration. It will be a rotational force. 
I don't have enough money to bring that battalion back home or 
the one before it back home. So I got to do my homework between 
now and then. I can get them there; I just can't afford to get 
them back.
    The Chairman. The gentlelady's time has expired.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    And thank you very much for your service. I grew up in 
Charleston, South Carolina, and I have a firsthand experience 
of growing up with Navy personnel, and what extraordinary 
people that you work with and who protect our country, and then 
I have had the privilege of representing Beaufort County, 
Parris Island, Marine Corps Air Station, Beaufort Naval 
Hospital, and the Marine personnel I have had the privilege of 
working with are truly an inspiration and an indication of 
dedication to our country.
    General Amos, we understand the Marines will be needing to 
refurbish the existing M4s and M16s. What are your plans to do 
this? Will you follow the Army requirements? Or will you 
develop your own path?
    General Amos. Congressman, we do not have a program of 
record right now to replace the M4 or the M16A4. We like that 
weapon system. It is modularized. We have upgraded it for the 
last several years.
    However, we are joined at the hip with the Army. Our 
requirements team at Quantico works daily with the Army as they 
develop helmets, body armor, new weapon systems, and all that, 
so that neither one of us are surprised and we learn from one 
another. So right now, we are aware the Army is doing this. We 
are watching it. We are getting the same reports as they work 
through--work their way through this. Yet to be seen whether or 
not we are going to do this and yet to be seen whether or not 
we are going to jump onboard and replace our weapons.
    Mr. Wilson. Thank you. And, Admiral, my wife and I are very 
grateful. We have a son serving in the Navy. And so we know 
firsthand, again, the extraordinary personnel. What has caused 
the Navy to request an increase of almost 7,000 more sailors 
over the next 4 years from last year's plan?
    Admiral Greenert. Well, things have changed, Congressman, 
over a couple of years. We are growing, and we are hiring. And 
so if I could summarize it, we had through OCO [Overseas 
Contingency Operations] individual augmentee process, we were 
presented over the last few years, we--our folks were funded. 
We had a number of billets funded, about 2,000.
    And so those individual augmentee, that requirement and 
that funding source has changed so now we are carrying that 
billet base in our manpower count, so that is 2,000 of that. We 
are building cyber warriors. That is almost 1,000. we are 
bringing new ships in. That is almost 1,200 right there.
    We are bringing new capabilities in, unmanned aerial 
systems and our Littoral Combat Ship, and preparing to bring 
the mission modules in. That is about 900. So those are the big 
chunks of those amount.
    Mr. Wilson. And you feel like there is sufficient funding 
for recruiting and retention?
    Admiral Greenert. I do. Right now, our recruiting is going 
along fine. It is becoming more challenging. The economy is 
starting to change, but we are meeting goals, and retention is 
adequate. But trust me, Congressman, I got a microscope on 
retention right now with high op-tempo.
    Mr. Wilson. And I also want to commend you on the sand 
sailors who are trained at Fort Jackson, South Carolina, 
volunteers to serve in Afghanistan and off ships. And it is 
really, again, inspiring to see the people who you have 
recruited.
    Admiral Greenert. Thank you, sir. To a person, they say 
that training has been effective and proper for them when they 
go overseas.
    Mr. Wilson. Excellent.
    And, Mr. Secretary, considering the significant variability 
associated with the budget and resulting force structure, is it 
premature to initiate a BRAC [Base Realignment and Closure] 
round? In terms of force structure and budget, what planning 
factors would the Department use to determine appropriate 
infrastructure requirements?
    Secretary Mabus. Congressman, DOD has requested a BRAC 
round for fiscal year 2015, and I think it is appropriate for 
us always to take a look at these things, to take a look at 
what we are doing at each of our facilities, to make sure that 
they are still required, to make sure that they are doing 
things in the most effective and most efficient ways.
    I--when I was governor of Mississippi, I lived through a 
BRAC round. It is a stressful time. We recognize that. But I do 
think that, in this time of constrained budgets, we should at 
least take a look at what is possible and what needs to be 
done. The outcome of that, I think, that--you talk to General 
Amos and Admiral Greenert. We in the Navy have taken previous 
BRAC rounds very seriously. We have shed most of our 
duplicative and overlapping bases and services.
    So I think that where we are in the process is, we have 
done a pretty good job in terms of skinnying down and making 
sure that all our bases have the requirements and the--that 
they need.
    Mr. Wilson. Thank you.
    The Chairman. Thank you, Mr. Wilson.
    Mr. Larsen.
    Mr. Larsen. Thank you, Mr. Chairman.
    Just a few questions. First off, the committee will have an 
opportunity to support the EA-18G program as a budget 
submission for 2014, because of the addition of 21 additional 
Growlers. And so I hope the committee will take that 
opportunity.
    But I think for the purpose of the background, General 
Amos, if you could start--and, General Greenert, then follow 
on--could you walk through the Marine Corps' expeditionary 
electronic attack decision and then how that has now migrated 
to the Navy?
    And, General Amos, could you start with why the Marine 
Corps is getting out of the Prowler business? And then General 
Greenert can take over from--to discuss the expansion of the 
Growlers.
    General Amos. Congressman, we are sundowning our--which 
means we are retiring--our four EA-6B Prowler squadrons that we 
have currently at Marine Corps Air Station Cherry Point, North 
Carolina. We will sundown the last one in fiscal year 2019. We 
start in fiscal year 2016.
    The airplane is simply out of service life. I mean, we 
began flying these airframes, the early version of these 
airframes in Vietnam, and then we got--we kind of came out of 
that and started building the one we have, and then we just 
added it and service life-extensioned it. So it is out of 
Schlitz. So we are sundowning that.
    While we have done that, we have brought in electronic 
attack capabilities for the ground commander on the ground, so 
he can actually manage his piece of the battlespace to some 
degree fairly effectively, with electronic warfare fires from 
organic equipment, and we are bringing in some new equipment 
there.
    But I think the real replacement for us is the F-35B. Early 
on, when the decision was made to go to that aircraft, we did 
an analysis between what the organic system, the radar, the 
AESA, [active] electronically scanned array radar, provides, 
and the integration of the systems on that airplane with 
regards to electronic attack, and balance that against what we 
call the ICAP III [improved capability] version of the EA-6B 
Prowler, which is the Cadillac version we have now.
    Mr. Larsen. Right.
    General Amos. And it is about 85 to close--maybe 90 percent 
of what just the standard F-35 AESA radar and systems--has 
about probably 85 percent of what--of an ICAP III has. We are 
looking right now at fielding an electronic pod that will hang 
on the wing of the F-35B, which will take it past the 
capability of the current Prowler. So I think by the time we 
stand up our fleet squadrons, we will have that pod. It is 
already developed. It is just a function of integration. So we 
will be back in the airborne electronic attack business for the 
Marine Corps.
    Mr. Larsen. Yes.
    And, Admiral Greenert, then, could you take it the next 
step there?
    Admiral Greenert. Yes, sir. What we are talking about, 21 
aircraft, as you mentioned, Congressman, and that will break 
down to two operational squadrons, and that will bring our 
expeditionary--the Navy's expeditionary squadron. And as 
Commandant said, we are happy to take on this mission in the 
Department to five, so that would be five operational 
squadrons, one training squadron, and one reserve squadron.
    Congressman, in my view, the more I look into the 
electromagnetic spectrum, what we need to do in it, where it 
results in the future, where our potential adversaries are 
developing it, the electronic attack is huge and a major, major 
part of the air wing of the future, air warfare of the future, 
warfare of the future, including cyber.
    And so we are very pleased to be taking on this mission. 
This is going to be an awesome capability, and when you add the 
Next Generation Jammer, which is in our budget here, this will 
be a really very cutting-edge capability.
    Mr. Larsen. Yes. Mr. Secretary, when Secretary Hagel was 
here, I discussed a little bit about the feast and famine 
nature of electronic warfare where sort of the conditions for 
famine are coming up as part of the budget picture. And I guess 
I would ask you, from a Secretary's perspective, your ability 
to avoid famine on electronic warfare and what you plan to do--
what is your plan to ensure continued investment in it?
    Secretary Mabus. Well, as both the Commandant and CNO has 
said, this is one of our critical capabilities, particularly in 
anti-access/area-denial theaters. And so I think that you are 
seeing some of the things that we are doing, putting in these 
21 Growlers to stand up the two additional expeditionary 
squadrons, pursuing the Next Generation Jammer, so that 
whatever the platform is, we can carry that in and to the 
Commandant's point. They have 35B having an electronic attack 
and electronic defense mechanisms on it.
    Mr. Larsen. Thank you.
    The Chairman. Thank you. Mr. Turner.
    Mr. Turner. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here. Thank you for your 
leadership and your contribution to our national security. I--
my question is going to be about sequestration, and it will be 
initially directed to General Amos, and then I will look to the 
rest of you to comment.
    Mr. Secretary, I think in the response to Congressman 
Miller, you were indicating that the budget doesn't assume that 
sequestration continues. And, you know, one of my concerns in 
our ability to try to offset sequestration is that I believe 
that we are in part where we are, here with sequestration going 
into effect, because Congress and the American public did not 
have enough information as to what the effects of sequestration 
would be.
    Now, I voted against this mess, because I believe that we 
would be right here, where there is no solution, implementation 
of a strategy that is detrimental to our national security, 
without a very good understanding of how to stop it.
    So one of the things that we need to do better--and we look 
to your assistance--is to be able to tell what the effects of 
sequestration will be so that there can be an understanding not 
only in Washington, but also, you know, across the country of 
how devastating this is and how it needs to be remedied.
    That pressure of--that the effects, as the President said, 
would be, you know, so detrimental that no one would allow it 
to happen, it is now happening. But we are not hearing a clear 
picture of those detrimental effects.
    And so I want to go first to General Amos, you know, it has 
always been our policy for the past two decades that we look in 
our planning and in our strategy that we would have an ability 
to fight in two wars, in two conflicts.
    The President's strategic guidance, he recently indicated 
in his five major tenets, that his intention was to, ``Plan and 
size forces to be able to defeat a major adversary in one 
theater while denying aggression elsewhere or imposing 
unacceptable cost.''
    That is a significant shift at a time, of course, when our 
world is not getting to be a safer place that we would look at 
a narrowing.
    Secretary Panetta made the following comments about the 
administration's new strategic guidance at the 2012 Munich 
Security Conference in front of America's major allies.
    He said, ``We will ensure that we can quickly confront and 
defeat aggression from any adversary anytime, anyplace. It is 
essential that we have the capability to deal with more than 
one adversary at a time and believe we have shaped a force that 
will give us that capability.''
    So there is a conflict in the two statements as to what our 
capabilities will be.
    We now look at three rounds of cuts and with sequestration 
currently in place and the prospects that it might remain in 
place. I have become increasingly concerned as to what our 
force would look like under sequestration.
    So, General Amos, where we had initially the goal of being 
operating in two conflicts, the President now saying a focus of 
one conflict, I am concerned whether or not under sequestration 
we--that the Marine Corps would be able to support the Nation's 
strategy if sequestration continued and beyond.
    Would we be able to function effectively in one conflict 
with the restraint that you have in funding and in capability? 
And, also, certainly what do you see in future years if it is 
left in place? What does it do to the Marine Corps? You 
indicated $700 million in additional cuts. Could you please 
give us a picture of that so that as we try to advocate for 
sequestration to be set aside, we can have accurate 
information.
    General Amos. Congressman, the truth is right now if you 
take--and you were to take a major theater war, what we called 
in the old days a major contingency operation, but what you 
were referring to, the Marine Corps today sits at 27 infantry 
battalions. We are on our way down to 23 as a result of the 
Budget Control Act.
    So let me see if I can set that in the context of a major 
theater war. The typical, what you would call the notional 
major theater war, and, of course, there is rigor behind this 
which I can't get into in an open hearing, but is about a 19 
battalion requirement of the United States Marines.
    So as we go down to--headed to 182,100, that would give us 
a couple of battalions over, you know, beyond if you just 
deployed everybody. That is actually pretty reasonable because 
there is going to be combat replacements and there is going to 
be a need for more Marines to replace those that are wounded 
and those that we lose.
    So there is really not a lot of slack. We become a ``go to 
war and come home when it is over'' force. We are a single MCO 
[major contingency operation] Marine Corps.
    Now it doesn't mean that if we are involved in that and 
something else happened and somebody said, ``Commandant, I will 
pull out my folks from Washington, DC, and we will bring 
everybody and cobble together because every Marine is a 
rifleman, we will send them.''
    But when you start talking about major combat and major 
combat units, we are a single MCO Marine Corps as we go to 
182,100. That is 487. That is the Budget Control Act.
    You go to--we bring in sequestration and we will be down in 
the teens for battalions and we will be very, very strained to 
be a single MCO Marine Corps.
    The Chairman. Thank you.
    Ms. Bordallo.
    Ms. Bordallo. Secretary Mabus and Admiral Greenert and 
General Amos, thank you very much for your service and I 
appreciate the strong relationship that Guam has with the Navy 
and Marine Corps.
    General Amos, I was encouraged and appreciate the DOD 
positioning a THAAD [Terminal High-Altitude Area Defense] 
system to help protect Guam from possible attacks. And I am 
also encouraged to see DOD is providing funding directly 
related to the realignment of Marines from Okinawa to Guam.
    Can you provide me with an update on how the Marine Corps 
transition to Guam is progressing and what are the impacts of 
sequestration and how important is the Marianas region for 
joint training?
    And I would ask you gentleman to limit your answers. The 
committee is very strict with time.
    General Amos. Congresswoman, we are operating out of Guam 
right now. We have got an infantry rifle company there today as 
we speak. We have had F-18 squadrons from Iwakuni, Japan, that 
have come down, as many as three that have operated out of 
Guam.
    We have operated out of Tinian. We are trying to 
acclimatize ourself there. We don't have any new facilities 
there. There is nothing that says United States Marine Corps 
painted on the outside of a building.
    So we are sharing facilities with the Air Force. We are 
living in places that we like to live, maybe others wouldn't, 
but we are committed to Guam.
    If sequestration, when it hits, again, it is law, it is 
going to slow down the transition to Guam. It absolutely has 
to. It is going to slow down military construction money. It 
will slow it down. But we are still committed to go to Guam and 
I am bullish on it.
    Ms. Bordallo. Thank you. Thank you very much.
    Now, this question is for Secretary Mabus or Admiral 
Greenert. I remain greatly concerned about the number of MSC 
[Military Sealift Command] and Navy ships that are sent abroad 
for repairs.
    I recognize that emergent repairs are exempt from Repair 
American provisions in Title 10. However, an annual report to 
Congress shows an alarming number of ships that are now being 
sent to foreign shipyards.
    Can I have your commitment that the Navy will continue to 
work closely with me to make sure the intent of Section 73.10 
of Title 10 are upheld according to the intent of Congress?
    I recognize that budgets are tight, but sending money 
overseas seems very shortsighted to me.
    And do we have your commitment to an acquisition strategy 
that maintains a depot-level ship repair capability on Guam?
    Admiral, I think you would be the one to answer that.
    Admiral Greenert. Ma'am, you have my commitment that we 
will comply with law, with regulation and with the intent not 
just, you know, the specific regulation.
    And as you and I have talked, I am real bullish, as the 
Commandant has said, on depot repair capability on Guam. If you 
look at my little chartlet here, you know, you put your little 
finger in the middle to balance it, it is Guam.
    It is right in the middle of all of it. So we have to have 
a repair, a refurbish, it is a base and a place and key to my 
strategy.
    [The chart referred to can be found in the Appendix on page 
180.]
    Ms. Bordallo. Thank you. Thank you for your commitment. And 
my third question is to you, Admiral, as well. I note that the 
USS Freedom, the first LCS [Littoral Combat Ship] ship, is 
making its maiden voyage to the Asia-Pacific region and will 
ultimately end up in Singapore.
    There was a lot of anticipation having the ship make a port 
call on Guam. It is important for our allies to see us deploy 
our newest and most sophisticated equipment to this critical 
region.
    I know there have been some concerns about the ability to 
provide any repair or support to the ship as it is forward-
deployed. Are there any lessons learned from this deployment to 
date that are worth noting?
    Admiral Greenert. There are, ma'am. And they are you have 
to--the ship has a unique capability. It is monitors all its 
operations very quickly.
    And the lesson learned is to get that information out so 
that in such a large region you are so--you know so much about 
this and that is the tyranny of distance in the Western Pacific 
so that we can get the parts where they need to be.
    And when we use the concept of operation of these ships in 
the future, we will have to have a network of logistics to 
respond very quickly to have the right parts in the right place 
because the crews are small.
    Ms. Bordallo. Thank you, Admiral.
    And, Secretary, do you have any comments on the build-up on 
Guam that I asked earlier?
    Secretary Mabus. We--consistent with the NDAA [National 
Defense Authorization Act] and the restrictions that were put 
in there, we are doing military construction, particularly for 
Marine Air in Guam that will be used regardless of what happens 
in terms of ramp space, in terms of hangars, things like that.
    As you know, we have got the supplemental environmental 
impact statement going. It will end in 2015 and we are marching 
ahead with the plan to relocate Marines from Okinawa to Guam.
    Ms. Bordallo. Thank you, Mr. Secretary.
    And I yield back.
    The Chairman. Thank you.
    Mr. Kline.
    Mr. Kline. Thank you, Mr. Chairman.
    Thank you, gentlemen, for being here, for your service, for 
your testimony today and for your very frank and complete 
answers to our questions. It is very, very helpful.
    I am going to yield the remainder of my time to a new 
member of Congress and, therefore, this committee, fellow 
marine, Colonel Cook.
    Mr. Cook. Thank you, Congressman.
    General Amos, you talked about Americans--America's 911 
force. I just want to go over this one more time. As a marine 
and as a 0302 infantry, the culture of the Marine Corps has 
always been about the mission, about ``Semper Fi.''
    Unfortunately, I have gone through this drill in the past 
where budget cuts have gone right to the bone. And as an 
infantryman, as a person that commanded marines, it is really, 
really hurt us.
    The tempo of ops never seems to slow down, but it puts us 
in a very very precarious spot. In terms of having these 
expectations where if the balloon goes up, we got to go to war 
and, yet, are we going to be ready to be able to do this.
    I know you addressed this, but maybe I am trying to 
underscore the fact over and over again. We have done this 
before and we have paid the price in terms of being 100 percent 
ready whether our readiness was C1 or C2 and maybe the old C3 
or C4.
    And can you--I know we are going down to 182,000, but I am 
concerned about the training, the readiness that all these 
tempo of ops things that we have listed that seems as though 
they never go away.
    Do we have to be more realistic in terms of meeting this 
goal of being always ready whether it is as a second lieutenant 
with a bald eagle or sparrow hawk, which a lot of people in 
this room have never heard about, but a lot of people died 
doing those type of things?
    So if you could kind of address some of those concerns, my 
concerns on that, thank you.
    General Amos. Congressman, we made a decision 3 or 4 months 
ago. I talked about it just a little bit earlier in my 
testimony, but it bears. To take money to assure that those 
forces, not only the ones that are already deployed, they are 
at the highest state of readiness.
    Those that are about to deploy will be at that same state 
of readiness. So that is my commitment to Congress, the 
American people and to the Marines.
    I will leave tonight. We will go spend the next 2 days at 
Camp Pendleton and I will talk to 5th Marines, 1st Marines, 
11th Marines. I am going to tell them exactly the same thing. 
You have my promise that we will move money around, within our 
authorities to the best of our ability and H.R. 933 helped for 
2013 to ensure the readiness of the forces that are getting 
ready to go.
    So that right now, as we sit today, is fine. But we are 
eating our seed corn right now for the readiness for those 
units that aren't on the slate to deploy until next year. Maybe 
at the end of next year. Those that are just coming back. We 
are taking money away from their training. Taking equipment 
away from them. Taking money away from the sustainment of their 
equipment. And we are eating that seed corn right now to insure 
that I have near-term readiness.
    I am also taking money out of procurement, PMC 
[Procurement, Marine Corps], which is reset, which is 
modernization, to move it into readiness accounts. That is my 
job. My job is to be ready. I mean I really take that 
seriously. Just be the most ready when the Nation, people think 
that is cornball. But I suspect that you and I don't. What is 
going to happen in 2014, as we move into the early parts of 
2014, those units that are back here, I am talking infantry 
battalions and squadrons.
    Based on sequestration, the way we know it right now, those 
units that are back home and that are not in the queue to go 
will be less than 50 percent ready. Which means they will be C3 
or worse. So if the balloon goes up, what are we going to do? 
We are going to cobble them together just like we did the 1st 
Marine Provisional Brigade and sent it with 5th Marines into 
Korea. We will do exactly that. But you are 100 percent correct 
and I am very concerned about it.
    Mr. Cook. Thank you very much for your explanation. It is 
scary but you are absolutely right, it is still ``Semper 
Fidelis,'' you have a mission to carry out and get it done. I 
yield back. Thank you.
    The Chairman. Thank you.
    Mr. Courtney.
    Mr. Courtney. Thank you, Mr. Chairman.
    I just want to compliment Mr. Cook on his questions, even 
though he represents a district from California, he actually 
hails from Connecticut which explains the brilliance of his 
presentation here. And also just want to thank all the 
witnesses for being here, particularly Admiral Greenert and 
General Amos. Last time you were here I think there were 27 
stars that were, in my opinion, laid out very clearly the 
damage that sequestration was going to cause.
    And although at least there was some partial response by 
getting the continuing resolution [CR] passed, clearly what we 
are hearing this morning is that you still have unacceptable 
risk, that you are still going to be forced to try and manage. 
And hopefully that momentum of getting the CR passed will 
continue in terms of getting some good decisions.
    For the record, I mean since 1985 when sequestration was 
first enacted after Gramm-Rudman-Hollings, Congress never let 
it go this far. And hopefully we will look at that past 
experience as a guide to avoid the dangers that you are 
presenting.
    I also want to congratulate or complement both you and the 
Secretary in terms of getting the 2014 second submarine in the 
Virginia-class program protected through the CR. That was a 
tremendous challenge over the last 14 months. And Under 
Secretary Stackley, again, I think has just been an amazing 
public servant in terms of trying to juggle all of these 
challenges with so much uncertainty that he is facing.
    In terms of sequestration again, one of the things that you 
were able to mitigate with the passage of the CR were the 
civilian employee furloughs. Again it was at that point 
projected to be 22 days of furloughs. The last reports I have 
seen is it is down to 7. Is that over? First of all, is that 
number accurate? And if it is, are we pretty much stuck with 
that furlough plan between now and the end of the fiscal year?
    Secretary Mabus. I believe the last announcement was from 
22 to 14 days. But I think the direct answer to you, is 
everything about that is still under discussion. That Secretary 
Hagel said if we can do better we will do better. And I know 
that everyone at DOD and particularly the three here testifying 
today, recognize the critical importance of our civilian 
employees and particularly to some of operations and the 
operational impacts that losing any of them for any amount of 
time would have on Navy and Marine Corps.
    Mr. Courtney. Well thank you. And I hope that people will 
continue to look at that again. I noticed, Admiral Greenert, 
you listed that as probably the number one priority in terms of 
mitigation. I just, a perfect example of it were the Groton 
firefighters from the Navy base who drove up to Maine in the 
middle of the night and literally turned that fire, the tide of 
that fire around. You know that is a skill that we need at all 
times. You looked like you were reaching for the microphone, if 
you wanted to say something?
    Admiral Greenert. No, I am good.
    Mr. Courtney. And lastly I guess in terms of the SSBN 
[ballistic missile nuclear submarine] program which again both 
of your testimony identified as a must-do item. Again, I know 
the Navy has been trying to focus on trying to extract as many 
savings out of the requirements process. Can you give us any 
sort of update in terms of where that is headed and again, the 
sort of knife-edge schedule that we are on for 2028.
    Admiral Greenert. We are finding that we are very 
comfortable with the design. And what I mean by that, we do 
design, then test it. We are using the Virginia class as our 
benchmark. That is a very successful program and I thank you, 
Congressman, for the tireless effort you did, you worked in, 
you and your constituents, in this committee and others, to 
help us get that second SSN [nuclear submarine] in fiscal year 
2014.
    But the Ohio replacement program is going apace. We will 
work through sequestration as I have stated, that is a very 
important program. We have got to stay the pace on that. So we 
are very comfortable with that. The Ohio class itself is 
performing well, so as we look at our plan out there toward 
bringing, sequencing down the Ohio class and bringing in the 
Ohio replacement, we are very comfortable. And the requirements 
review is going well.
    Mr. Courtney. And again I think the warning was issued the 
other day by the general in charge of strategic defense that we 
really can't miss that date, right, in terms of deploying that 
first Ohio submarine, because we really start to have a 
readiness problem if that happens. Is that still the case?
    Admiral Greenert. Yes sir, that is the case. Until, it is 
all about how many SSBNs are available and deployed and on 
alert. And those numbers remain the same. Until they change, 
that is our mandate and we are good on that.
    Mr. Courtney. Thank you.
    The Chairman. Thank you. Mr. Rogers.
    Mr. Rogers. Thank you Mr. Chairman. First General Amos, I 
want to thank you for your professionalism and your candor in 
that last answer. I hope the President is paying attention to 
what you are saying. That was very revealing.
    My questions are going to be directed to Secretary Mabus 
and Admiral Greenert with regard to the Ohio-class replacement 
submarines. These submarines are being designed to meet 
potential threats seven decades from now. With regard to the 
missiles and the entire strategic weapons system, how is the 
Navy positioning itself within the FYDP [Future Years Defense 
Plan] and beyond to maintain the weapon system to meet the hull 
life of the Ohio-class replacement. How do you long the expect 
the D5 [Trident II missile] system to be sustained and what are 
we looking to replacement it? And when might this system be 
fielded?
    Secretary Mabus. Thank you Congressman, inside this FYDP we 
are looking at the D5 extension program which will take that 
weapon into the 2040s. We are also doing as Admiral Greenert 
said in answer to the previous question, the design, the R&D 
[research and development] work on the hull itself, on the 
replacement platform, on the Ohio-class replacement.
    And we do think that those two things are going along very 
well in concert. The common missile compartment that will go on 
the Ohio-class replacement, also goes on the British Successor 
class. We have been working very closely with our British 
allies. They are paying for part of this design and 
development. To make sure that it meets not only our schedule, 
but their schedule. And Admiral Greenert who is a submariner 
and knows far more technical things than I do about this, can 
add some things to that.
    But where we are now we are on track, we are on schedule, 
both in terms of the platform and the weapons.
    Mr. Rogers. It is to be fielded when? When will it be 
fielded?
    Secretary Mabus. The first Ohio-class replacement will go 
to sea in 2028, 2029.
    Mr. Rogers. The current Ohio-based submarines have a finite 
service life. In fact, they are being pushed far beyond the 
service life of almost any submarine previously deployed by the 
U.S. Why is it important for the first Ohio-class submarine to 
be delivered in 2029? Admiral.
    Admiral Greenert. Well, as you correctly laid out, 
Congressman, the Ohio class has gone beyond its design life. We 
have had two extensions. Now we do this very deliberately and 
it is based on science, it is based on testing and engineering. 
And so far it is passing all that tests. The issues of concern 
are nuclear, it is the nuclear components that are irradiated, 
as well as the hull, exposed to seawater, goes up goes down, 
that is a lot of cycles. And we monitor certain aspects of the 
hull itself and the seawater systems. Going very well.
    But as a previous question indicated, we are signed up. Our 
mandate is to have a certain number of SSBNs available, 
available to deploy, and then deployed on alert. And we have to 
meet that. That is a national tasking. And that is why it is so 
important that we get this done on time. We are on track.
    Mr. Rogers. What happens if it is not done on time? If you 
miss the 2029 target date that you are expecting?
    Admiral Greenert. Well, what you would have to do is, you 
would have to extend patrols in order to do the coverage and 
you could do this in the short-term, well you could. And the 
problem is downstream. Like a lot of these. There is an 
expected maintenance process. And during that time that you 
just described, that 2029, all the Ohio-class submarines would 
be finished with all their overhauls. They would all be 
available.
    We would likely be using up, if you will, the Ohio 
replacement. You know those that were in place. If they were 
not ready, we would have to extend the Ohio class. And that 
goes beyond the design time we expected to have them into sea. 
So we would be into new territory.
    Mr. Rogers. And how are you managing the cost on this 
replacement program?
    Admiral Greenert. We are managing the cost of this 
replacement program by being very deliberate and very vigilant 
on the requirements that we put in place. And we are measuring 
frequently, how much is, what did we estimate this requirement 
be? What are the design engineers coming back with? If there is 
a cost growth, why is there that cost growth? And is there, can 
we descope, is there another materiel we would look at? And as 
Secretary Mabus said, we are doing this with a partner, so we 
have to do this very closely with the U.K.
    Mr. Rogers. How have the costs been? Are y'all coming in on 
budget?
    Secretary Mabus. Congressman, so far we have taken more 
than $2 billion per boat out of the Ohio-class replacement and 
we are continuing to come down. In--fiscal year--I believe, 
2011, we wanted the number to start with a 4 to----
    Mr. Rogers. On that good note, I will shut up.
    Thank you very much for your service, and thank you for 
being here.
    The Chairman. Thank you.
    Ms. Hanabusa.
    Ms. Hanabusa. Thank you, Mr. Chairman. Thank you, 
gentlemen, for being here.
    I would like to follow up on some of the questions that 
were asked earlier. And I think this is to Admiral Greenert.
    Admiral, you are talking about furloughs, and I think, you 
know, you said it is still fluid, and I believe the Secretary 
of the Navy also said that.
    I have read some reports, whether accurate or not, that the 
Navy and Marine Corps can actually do away with the furloughs. 
In other words, you have enough in terms of your, I guess, 
operation maintenance budget, or within enough flexibility 
there that you could do away with it. But this may be a 
question of whether the DOD as a whole would take one position.
    In other words, does everyone take 14 days, or does 
everyone take 7 days, when the Navy could and the Marine Corps 
could do with no furlough days?
    Am I correct in my understanding?
    Admiral Greenert. Well, what you are correct in is that the 
Department of Defense wants to approach this very deliberately 
fair across the board with all of our partners--our civilian--
in my case, sailors.
    You are also correct, ma'am, that we did a number of 
evaluations that we fund with operations and maintenance, are 
civilian. And we looked at a lot of possible scenarios that we 
could use. As I have articulated, I got shortfalls across the 
board. The question is, what is the proper use of these funds, 
and as Secretary Mabus said, we are still just discussing that 
in the Department.
    Ms. Hanabusa. You also testified about the concept of an 
industrial base, which I think is also very critical. In 
situations, for example, like Pearl Harbor, which I represent, 
you would have if you take furlough days--and I was sort of 
calculating it.
    You know, we have, like, 5,000 employees--a rounded 
number--and if we were doing, like, middle of June, 14--14 
weeks or 14 days--5,000--if you were to give them furloughs, 
one a week, you know, you would have 1,000 employees--civilian 
employees off every single day. And that has gotta then affect 
the efficiency of--and our readiness posture more than anything 
else.
    So that is what I am also interested in, is that when you 
have that large of a contingent, how are you going to do these 
furloughs and not affect readiness substantially? And it is 
going to affect the whole industrial base, or whatever you want 
to call it, in terms of our ability to be ready, especially in 
the situations that we are now facing in Asia-Pacific.
    Admiral Greenert. You have laid it out very well, ma'am, 
and that--again, we are in discussions.
    You take that and extrapolate that to aircraft depots, you 
extrapolate that to family service centers--you know, if there 
is counselors involved--and we have to tier this right. We have 
to compare that with operations money, you know, fuel, parts--
other maintenance, if you will, and other support. And we gotta 
do this right, and that is what the Department wants to get 
right, and that is--we are still in discussion.
    Ms. Hanabusa. The other question I have is, we all didn't 
expect sequestration to happen, but it has happened. And we are 
hoping on the 2014 budget, that somehow, sequestration will 
miraculously disappear. But what if it doesn't? What is going 
to be the impact then?
    Is the 2014 budget sufficient to give you some movement? In 
other words, have you--is it plussed-up enough, so that if you 
take another hit like we are taking now--$10, $11 billion from 
Navy and Marine Corps alone--are you going to be able to 
withstand that?
    Admiral Greenert. Well, for me, as I laid out there before, 
it is $23 billion estimate; $9 rolling over from 2013, and 
another $14 billion estimated. It could be a little bit more, a 
little bit less.
    And, you see, we put some things off in our investment 
accounts to get through 2013. We call that ``cost to 
complete,'' and that is the--kind of the--training materials, 
parts, documentation--things of that nature. Auxiliary gear 
that goes with ships' aircraft.
    We said, ``Well, we will defer that,'' so that we don't 
lose the aircraft as a result of sequestration in 2013. That is 
all going to come to roost somewhere. And if not 2014, well, 
when?
    But at those levels--at $23 billion, that is substantial 
and we can't do that. So there will be real industrial base 
issues here, ma'am, and I am concerned. However, as mentioned, 
we are doing a strategic concept and management review. We are 
looking at what in that scenario you just described--do we keep 
more force structure, or hold on to more capability, reduce 
overhead, look at compensation and entitlements? What 
asymmetric capability do you want to keep instead of others, 
under that scenario? And that is what we are looking at now to 
help inform us. And we will work this summer to decide, what 
will we do in this case?
    Ms. Hanabusa. Thank you.
    Thank you, Mr. Chair.
    Mr. Forbes [presiding]. Thank you.
    Mr. Wittman is recognized for 5 minutes.
    Mr. Wittman. Thank you, Mr. Chairman. And Secretary Mabus, 
Admiral Greenert, and General Amos, thank you so much for 
joining us today, and thanks for your service to our Nation.
    General Amos, I wanted to ask you specifically about the 
amphibious combat vehicle [ACV]. Where are we in the progress 
of that vehicle?
    Looking at where we are in these fiscally austere times, 
can you tell us why the Nation should be investing in that 
particular vehicle?
    And then, looking to--ahead, how critical is the ACV for 
Marine combat operations going into the 21st century?
    And essentially, let us know, what are the baseline 
capabilities of the amphibious combat vehicle?
    General Amos. Congressman, thanks for letting me talk about 
that important capability.
    I have got two major programs in the United States Marine 
Corps. One is the F-35B and one is the amphibious combat 
vehicle.
    So if you were to ask me, ``Okay, where do you want to put 
your money, that you are only going to be able to invest in two 
out of however many,'' I would say those were the two. So that 
gives you a sense for how important it is for me, and for our 
Marine Corps.
    So, thanks for that opportunity.
    The Department of Defense--OSD [Office of the Secretary of 
Defense]--did an amphibea--excuse me--an analysis of 
alternatives last year. They worked on it for the greater part 
of a year. Reported out last June, July, and that validated the 
requirement for a surface-born capability for marines to get 
ashore. When we come off an amphibious ship, we come off via 
air, the M-20--MV-22s, and that. And then we--and we come 
across the surface in tractors.
    Our tractor right now that we have, the amphibious combat 
vehicle, is going to--is going to replace--it is over 40 years 
old. By the time this amphibious combat vehicle comes in and it 
hits initial operational capability, it will be 50 years old, 
ours right now.
    So, we need it. So it is been validated. The requirement is 
there for 12 battalions worth of lift. We are only going to buy 
enough for six.
    So where are we? We have looked at this now since we 
canceled the EFV [Expeditionary Fighting Vehicle] 2 years--a 
little over 2 years ago and to continue to refine the 
requirements. We know we are only going to get one more bite at 
this apple.
    So we have worked this thing. They came to me about 7 
months ago. I looked at it, and I went, ``Okay, put it back in 
the process again.'' We have stood up a program office with a 
Ph.D. running it.
    Sean Stackley, the assistant secretary of the Navy for 
research and development--as he was said earlier, is a genius--
he is helping us with this. We are a partner with General 
Dynamics and BAE to help look right now at a--what is the art 
of the possible for a high-water speed tractor?
    They are to report back to me around September or October 
of this year. We will make a decision, is the cost too much? 
And if it is too much, well, then we will go with what we call 
a displacement--a slower moving vehicle. And we will get on 
with it. We will have a source selection, and we will get on 
with building it.
    So, Congressman, it is very, very important to us. It is 
critical to the naval--or for the Department of Defense.
    Mr. Wittman. Very good.
    I want to move and ask a question of both Admiral Greenert 
and again to you, General Amos, specifically about our 
amphibious class of ships.
    Where are we currently--where are we with the requirement 
going into the future? And can the Navy currently meet the 
standing requirement for a two Marine Expeditionary Brigade 
[MEB] lift requirement?
    And then also, can we meet that requirement going in the 
future with where we are going with the number of amphibious 
class ships?
    Admiral Greenert. Well, I support the requirement that the 
Commandant and the Marine Corps actually brought forward a few 
years ago--33 ships. That is actually a fiscally constrained 
number of 38 to provide support for forcible entry for two MEB.
    Can we--the question is, you know, can you support that? 
Well, you know, we are in at around 30 right now--29, 30, 31--
and if it ramps up, we eventually get to 33.
    There may be opportunity to get there sooner than later, 
but right now, early next decade with newer ships, if we get 
there.
    My near-term issue is, get the ships under construction out 
and into the fleet, and operating with the fleet as soon as 
possible. And keep those operated in the fleet at a high 
readiness level.
    The question is, how many--you know, how many ships do you 
need to have at what site, at what operation, at the right 
time? So there exists enough ships, but we need to be better. 
And I am endeavoring to do whatever I can to get there sooner 
to that next class of ship and get that in the fleet.
    Mr. Wittman. Very good.
    General Amos.
    General Amos. Congressman, I know we are working hard on 
this thing, because Admiral Greenert and I team up, and we work 
budgets--if not daily, certainly weekly.
    We work through this now, not only when we were both 
assistants to our service chiefs, but when he was a head of 
requirements and I was his--in the Marine Corps.
    We are working as hard as we can with the money that we 
have to get as many ships as we can.
    You are aware that we just commissioned the Arlington 2 
weeks ago down in Norfolk, a beautiful ship. The flaws have 
been figured out in that San Antonio class--this is a wonderful 
ship.
    Admiral, Congress was good enough this year to give us some 
extra money so we could sustain two LPDs [Amphibious Transport 
Docks] next year and not retire them.
    You know, my shipmate is working to keep the numbers right. 
So I am content with the effort. I am never content with the 
amount of ships. You know, I would like to have 50, but I got 
to balance it against all our other requirements, and I have 
got confidence in the leadership in the Department of the Navy 
that is taking care of us.
    Mr. Wittman. Thank you, Mr. Chairman. I yield back.
    Mr. Nugent [presiding]. Mr. Langevin is recognized for 5 
minutes.
    Mr. Langevin. Thank you, Mr. Chairman.
    Secretary Mabus and Admiral Greenert and General Amos, 
thank you for being here, for your testimony and for your great 
service to our Nation.
    Obviously, we are in challenging times, both for the myriad 
threats that we face, and from the damaging constraints--the 
fiscal constraints that are confronting the DOD and the Navy 
today. And we on the committee appreciate the benefit of your 
insights and your testimony.
    If I could, I would like to turn to Virginia-class 
submarines to start off with. And more specifically, I know 
that a change in the funding trajectory for the Virginia 
Payload Module in the President's fiscal year 2014 budget 
submission and so much of our undersea vertical launch 
capability is contained in the four converted Ohio SSGNs 
[guided missile nuclear submarines] that we begin to age out.
    Can you speak to the importance of maintaining this 
program, as well as the capability that VPM [Virginia Payload 
Module] will bring to the Block 5 and beyond Virginia-class 
submarines?
    Secretary Mabus. Congressman, you very correctly identified 
the issue that is going to be facing us in the mid-2020s, mid 
to late 2020s when the four SSGNs, guided missile submarines, 
begin to leave service.
    We have continued the work on the research and development, 
design work on the Virginia Payload Module because this is a 
crucial characteristic that we will need in our submarine 
force, not only for--to launch the missiles, the land-attack 
cruise missiles out of that, but to have these four large-
diameter tubes that you can use for a myriad of missions for a 
very flexible things.
    And with the funding stream that we have going forward, we 
will have the--we will be where we need to be to make the 
decision in terms of putting the Virginia Payload Module into--
to that block of submarines.
    Mr. Langevin. Thank you.
    If I could turn now to directed energy. First of all, I 
want to congratulate the Navy on the recent successful test of 
a high-energy laser that shot down a drone and other tests.
    Admiral, I noted with approval the Navy's decision to 
deploy a directed energy system on board the USS Ponce--Ponce, 
I should say. And how does this deployment fit into the Navy's 
plan to deploy high-powered directed energy systems in the near 
and mid term?
    Admiral Greenert. Well, what--first, it is about validating 
the CONOPS [concept of operations]. I call this, ``Let's get 
this system wet.'' And so, I want to get it out to the Gulf, 
which, I think, is a really good Petri dish to lay in what are 
the effects of sand, air, heat, and, not only on the system 
itself, but on its support systems? How much power does it 
really take? Can--is latency an issue? And the Gulf has some 
interesting aspects of it from haze, from rain at different 
times.
    So it is really about the environmentals of that. And we 
will continue to test the system and see. The sailors find 
amazing things. And they come up with amazing ways to employ 
things when we give it to them.
    Mr. Langevin. Thank you.
    Well, this is an area I have real interest in. And I see it 
can offer a host of benefits, not necessarily going to be a 
replacement for kinetic defenses, but certainly would be a 
great supplement to them, especially for ship defense and we 
have--and operating the littorals, especially as our 
adversaries are continuing to develop surface-to-air missiles 
and things that could further threaten the fleet.
    Let me, while my time is still--I still have time. Let me 
turn to cyber. Secretary Mabus, looking at the fiscal year 2014 
budget, are we resourcing adequately in order to operate within 
the cyber domain and ensure our national interests are 
protected? And, specifically, does the Navy require additional 
authorities in order to educate, attract, and retain the very 
best cyber operators?
    And if you could also, Mr. Secretary, with the guide to 
cyber, do you feel that we have reached the proper balance with 
regard to what capabilities and responsibilities that rest with 
10th Fleet, and CYBERCOM [U.S. Cyber Command] and the regional 
combatant commanders?
    Secretary Mabus. Congressman, I do think that we are where 
we need to be and heading where we need to be in terms of cyber 
in this budget. We are growing cyber, as Admiral Greenert said. 
We are growing cyber in the Marine Corps, as General Amos said.
    We are growing cyber forces for our inclusion with Cyber 
Command through 10th Fleet, as you noted. And I will be happy 
to give you a much fuller answer in writing, sir.
    Mr. Langevin. I would appreciate that. Thank you.
    I yield back.
    Mr. Nugent. Mr. Scott is recognized for 5 minutes.
    Mr. Scott. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here, Secretary Mabus, and 
Admiral, General.
    Secretary, you mentioned in the last round of questions, 
looking forward into the 2020s a little bit. And I want to talk 
with you about that, as well. Because 2020 is the year that my 
son will be a freshman in college. And, I think, certainly from 
my standpoint when I look at national defense, and I know we 
all care about it, we look at it from the standpoint of, ``What 
is going to be there for our children?''
    And here we are, taking cuts. We are canceling air wings. 
We are stopping the deployment of ships. We are furloughing 
civilians with the cuts that are coming. And I look at the 
world, and I think it is a much more dangerous place today than 
it was yesterday. And, I think, it will be a more dangerous 
place in several years than it is today. I think, we will have 
many more threats that we will have to be addressing.
    I want to ask you to all take a look at page 189 of the 
President's budget, table S5. And this is where I have the real 
hard time coming to grasp with where this country is going to 
be when my son is a freshman in college.
    If we look at total spending, it will be up $1.2 trillion 
from now. If we look at non-defense discretionary spending, it 
will be up. If we look at Social Security, it will be up. If we 
look at Medicare, it will be up. If we look at Medicaid, it 
will be up. If we look at every line of the budget that the 
President gave us, in 2020, which, again, is a special year for 
me--it may be 2019 for some, it may be 2022 for others--
everything is up other than defense discretionary spending.
    There is also another thing that is very special about that 
year. It is the year in which the interest payment on the 
national debt will exceed what we spend on national defense. 
And that makes the assumption that we are able to manipulate 
interest rates continually to artificial loads.
    So, I guess, when I--my question, Secretary Mabus, I don't 
think we can defend this country with that budget. And, I 
guess, when we talk about alternative sources of fuel, I am a 
big fan of them. I think, we need them. I don't want my Navy to 
be dependent on foreign sources of oil, just like I don't want 
my country to be dependent on foreign sources of oil.
    But--would you agree that the liability of our Navy being 
dependent on foreign sources of oil is similar to the liability 
of the American citizens and our economy being dependent on 
foreign sources of oil?
    Secretary Mabus. I am sorry, Congressman, I think that 
dependence on foreign sources of oil or foreign sources of 
energy in general, is not only a national security thing, it is 
a national energy security--it is a national security issue--no 
matter how we look at it.
    And that is the reason that we are trying to so 
aggressively pursue alternative forms of energy that are 
homegrown, that are not subject to these incredible price 
spikes. And I thank you for your support on that.
    Mr. Scott. And my question with that, Mr. Secretary, is 
right now the time to be buying as much alternative fuel as we 
are, or would it be more important to be able to deploy our 
fleet and keep our aircraft in the air and maybe just pull back 
a little back on the percentage of biofuels that we are paying? 
Because we do pay more per gallon for that fuel right now, if I 
am correct.
    Secretary Mabus. Two things, Congressman. Number one, I 
think it is more important now than ever to do it in this 
constrained-budget environment. In answer to a previous 
question, I said that in 2012, Navy got an additional $500 
million in fuel cost. In 2013, we are looking at an additional 
$600 million in fuel cost. That is $1.1 billion. We don't have 
many places to go get that. That is outside of sequestration. 
That is outside of the Budget Control Act. And so, that is what 
is causing our planes to operate less, us to steam less. So, I 
think, if we don't come up with this.
    And, secondly----
    Mr. Scott. [Off mike.]
    Secretary Mabus [continuing]. The price of that fuel----
    Mr. Scott. Okay.
    Secretary Mabus [continuing]. Is coming down dramatically. 
And I have committed that we will not buy operational amounts 
until it is absolutely, positively competitive with fossil 
fuels. And I am absolutely confident that will happen in the 
time being that we are looking at.
    Mr. Scott. Secretary Mabus, I appreciate that answer. And I 
have only got 10 seconds left. And if I may, if those of you 
who are--and I understand you are Presidential appointees--but 
if we look at 2020, the year in which my kid is a freshman, if 
the people from the DOD that come before us say the President's 
budget is balanced, and we support the President's budget, I--
those of us that want to put the money back in there are going 
to have a much harder time getting it back in there.
    And I honestly don't think that we can defend this country 
at the levels in 2020, when my kid is a freshman, that this 
budget has. And so, I would ask those of you to look at that 
chart, page 189 of the President's budget.
    I yield.
    Mr. Nugent. Mr. Smith is recognized.
    Mr. Smith. I thank you, Mr. Chairman. First of all, I 
apologize. Gentlemen, I was not here at the start of the 
hearing this morning. I had planned a speech some time ago at 
the Wilson Center before this hearing got scheduled. So I had 
to arrive late, but I have heard most of your testimony and 
certainly appreciate all that you are doing and the very 
difficult circumstances that have been described. I have met 
with all of you personally to discuss that.
    I don't know how you do it. I don't know how you go, you 
know, week to week, month to month not knowing how much money 
you are going to have, with the responsibilities that you have 
with that money. So we very much appreciate your diligence, 
your creativity, and your tireless effort to fund our national 
security in these very uncertain times.
    And, again, I will just reiterate that, you know, the 
sooner Congress can, you know, pass appropriations bills on a 
regular basis and get rid of sequestration and get rid of that 
uncertainty, you know, granted the number certainly should be 
higher in the budget, maybe long term than sequestration, but 
just getting rid of that uncertainty would be a huge step 
towards being able to help you guys do your job. So we will 
always emphasize that.
    On the biofuels point, just one quick thing. And I have a 
question on another area. But, look, we gotta generate 
alternatives. We gotta get to the point where if, you know, we 
have to buy oil from overseas at this incredibly high price, we 
can go, ``You know what? We are not going to do that. We have 
got something else we can buy.''
    And you just don't get there if you don't develop those 
alternative sources, if you don't make some investment in 
developing something other than oil, as long as we are always 
dependent on it, as long as oil can say, say, ``Hey, well we 
are the cheapest. We are the best. So don't bother with any of 
that other stuff,'' it perpetuates the situation that puts us 
into this hole where we have to buy--we have to buy oil. And if 
we have to buy it from whatever country in the world, then we 
have to. If we have to pay, you know, $5 dollars a gallon or 
$150 a barrel, and we have got no alternative, that is where we 
are stuck.
    So I applaud you, Secretary Mabus, and, you know, in both 
of your services, you know, for the efforts to finally get us 
some kind of choice so we are not held around the throat by 
whatever the price of oil is and whoever happens to be selling 
it.
    The question is on base realignment, very controversial 
issue up here. Everyone freaks out at the very mention of the 
word BRAC, but when you listen to some of the restructuring 
that is going on in all of the services, because of budget, 
because of changing national security needs, it seems 
nonsensical to think that we wouldn't be better served by 
restructuring in some ways. It is going to vary from service to 
service. But part of my question is to hear from both General 
Amos and Admiral Greenert, actually from all of you, on how you 
would, what needs would be out there to help you realign some 
of your bases, realign some of your force structure?
    And then also I am hoping and based on some private 
conversations that I have had with you, knew we could get 
there, part of what we can do here is also calm some nerves. 
That you are actually particularly in the Navy, got a force 
structure that is not that far off from where it needs to be if 
we did a BRAC, we are not talking about closing big huge, major 
bases in the middle, you know, things that may have happened in 
the past.
    So can you give us a little reassurance that your structure 
isn't as far off but also explain the need for at least some 
flexibility? If you could thread that needle, I would be 
curious to hear how all of you feel about base realignment.
    Secretary Mabus. Actually I don't think I could do a better 
job of threading that needle than you just did.
    Mr. Smith. Okay.
    Secretary Mabus. I think that it is as indicated in the 
budget, that it is a tool that needs to be looked at in terms 
of flexibility going forward. I also think it is the answer to 
the previous question, that the Navy and the Marine Corps have 
taken previous BRAC rounds very seriously and have shed a lot 
of the duplication, a lot of the excess, a lot of the things 
that were not needed for our operations. And I do think that 
our force is now, we are growing the Navy. We are growing the 
number of ships. We are growing the number of sailors going 
forward.
    And this new defense strategy that was announced 15 months 
ago is a maritime-centric strategy and it is going to place 
more focus on the Navy and Marine Corps and on the capabilities 
that we bring to the country and to any possible fight. So I 
think that, in terms of, as we look at BRAC, you have to take 
all of those elements into account.
    We need to look at it but I think that there is some 
solace. I don't know if you were here, but I did point out that 
as Governor I lived through a BRAC round and I understand the 
uncertainty and the concern that they cause.
    Mr. Smith. General, do you have anything to add to that?
    Admiral Greenert. Well, for us sir, we will bring as we did 
last year, to you and to your staff, what we call the strategic 
laydown. And it is kind of the metamorphosis of ports, people, 
ships, aircraft and it kind of shapes the port as we bring new 
construction ships in, as we retire some. And as we rebalance 
to the Pacific as we say, as you know, we are going from 55 
percent West Coast, 45 East to a 60/40. And so that has its 
own, if you will, realignment. Although it is subtle.
    Mr. Smith. That is a matter of moving ships for the most 
part. It is not a matter of shutting down a base or you know, 
it is just moving them around, is that fair?
    Admiral Greenert. That is right sir. And with that will 
come the supporting infrastructure. But as you said, are these 
major, no they are subtle. Over time, 10 years, it can appear 
major to some. We move an amphibious ready group to Mayport, it 
is a pretty big change to Mayport, as an example. We put P-8s 
in the Pacific Northwest in the Whidbey Island with Growler 
Squadrons, in the sum total it can be very big.
    If I may sir, though, what is very important to me, these 
little black squares on the chartlet that I provide, overseas, 
we get such leverage operating forward, being forward 
stationed. This is very subtle, modest changes that we need to 
support them. And the payback is huge. It is 4 to 1, it takes 4 
ships to keep 1 forward. If one is forward, you see the 
leverage, sir. And so I commend that to you, that that is 
important. We are evaluating our overseas laydown in the Navy 
and we will, we are going to reduce it as much as possible 
because it can get costly. And not put anything overseas that 
we don't need.
    Mr. Smith. A couple critical points there. I know a lot of 
people say, why do we have all these bases overseas? And we are 
in some places shrinking. I mean the Army I know is shrinking 
in Europe. There are a lot of places where it makes sense. But 
that is a huge point you just made about being present over 
there, means that you don't have to do all this work back home 
to be ready to be present over there if necessary.
    I guess the other thing is, I think the Navy is on solid 
ground, and I'll say this even though my good friend from 
Connecticut Mr. Courtney isn't here, if we could just convince 
him that New London is fine, I think he might have a different 
attitude about BRAC. And New London is fine. It is a critically 
important part of where we are at. And I am just worried that 
members are looking at you know, stuff that happened 10 years 
ago that may have jeopardized them and getting in the way of 
what we need to do on realignment. And in some isolated cases, 
closures. Stopping the minor changes that are necessary, even 
though the underlying structure, particularly in the Navy and 
the Marine Corps is very solid.
    Now, General Amos, if you have anything you want to add?
    General Amos. Sir, we are already pretty lean as you know, 
Congressman.
    Mr. Smith. Yes.
    General Amos. So there is not a lot of fluff with regard to 
our bases. We don't have a lot of them, and those that we do 
have are pretty well occupied. But to the larger issue, my 
personal opinion is where we are headed with 182,100 Marines, 
down 20,000 from where we have been, should be the floor.
    And I say that with regards to the future security 
environment. I mean there is absolutely no indication that 
things are getting any nicer out there. I mean just opening the 
Washington Post on Sunday you can walk your way around a 
geography lesson around the world. So as I look with my JCS 
[Joint Chiefs of Staff] hat on, I look and I go, okay well who 
is going to do this? Who is going to be out there, be present, 
forward, not at large land bases and stuff, but on ships doing 
the bidding of the Nation, responding to crisis? It is us. So 
that is why I say 182,100, I look at that and I go boy, this 
should be the floor of the Corps.
    Now I have said this before in this body and I have said it 
publicly. At the end of the day, when sequestration hits, if it 
is taken if it is adjusted, whatever it is, the Marine Corps 
will end up with euphemistically some pile of money to operate 
the Corps. And inside that I will build the most capable, ready 
Marine Corps that the United States of America can afford.
    But when I put on my other hat, my JCS hat on, we have got 
some business decisions as a nation to determine where we are 
going to balance our priorities. And where are we going to take 
our capabilities or perhaps most relevant over the next two 
decades in a resource constrained environment? Where are we 
going to use those and apply those? That is where I think the 
Navy and Marine Corps team really gives you a bang for a buck.
    Mr. Smith. We know you will do your best. And when you 
mention the dangerous world we live in, I have taken to doing a 
standard joke about I get clips every day as I am sure you do, 
about what is going on in the world. It always reminds me of 
the scene in ``Roxanne'' where Steve Martin buys a newspaper, 
takes it out, looks at it, screams, puts another quarter in, 
opens it up, returns the paper and shuts it. Doesn't want to 
have anything to do with it. Make no mistake about it, there is 
a lot of dangerous stuff going on in the world and you guys see 
it every day, do your best to deal with it. And I thank you for 
that.
    I yield back. Thank you.
    Mr. Nugent. I thank the ranking member. Great comments.
    Mrs. Roby is recognized for 5 minutes.
    Mrs. Roby. Thank you. And again thank you to each of you 
for your service and sacrifice for our country, we appreciate 
that and not just you but your families as well. So thank you 
for being here today. General Amos, I see in your posture 
statement that you request Congressional support to expand the 
Combat Center at Twentynine Palms, California, and extend the 
existing withdrawal of land for the Chocolate Mountain Aerial 
Gunnery Range in California as well as purchase private 
property to expand the Townsend Bombing Range in Georgia. So I 
just wanted to give you an opportunity to talk about why this 
is so important.
    General Amos. Thank you. Let me start with one that, I 
actually know all three of them well. I have operated and 
trained out of all three of them over my time as a marine. So 
let me start on the East Coast, Townsend, which is just outside 
of Savannah. And it is used primarily by the Air Force that 
flies in and around South Carolina as well as the Marines that 
fly out of Beaufort. And as Congressman Wilson was talking 
about we have got F-18 squadrons, soon to be F-35 squadrons up 
there, as well as up in Cherry Point.
    The Townsend Range right now is, I use it a lot. I have 
probably operated out of there over 100 times. Very limited. It 
is nice, it is convenient. It is about 70 miles away from the 
air station. And it literally is the only range within that 
kind of proximity to be able to deliver air-to-ground 
ordinance. All we are trying to do is expand the property 
around there, not to drop live ordinance. But to be able to 
actually drop the new family of weapons, JDAMS [Joint Direct 
Attack Munitions Systems] and these kinds of things, not using 
high explosive heads on these things.
    So it actually will bring that range into the 21st century. 
Because right now we are flying 20th century weapons in there 
because we are restricted. So that is what that would do.
    If you go to the Chocolate Mountain area just outside of 
Yuma, we have been using that for decades. The SEALs [Sea, Air, 
and Land] use that, we share that with them. And it is the only 
place that we have in that part, the only place, that either 
the Air Force out of Luke or the Marines or the Navy have an 
opportunity to drop the entire array of ordinance in a live 
configuration.
    The last place you want to do it for the first time is in 
combat. When you are actually trying to deliver a live piece of 
ordinance, it is very complicated. So all we are doing is ask 
that be renewed.
    And then the Twentynine Palms land expansion we have been 
working for 6 years, when I was a three-star, we started 
working it. It is a recognition that as we come out of 
Afghanistan and this counterinsurgency operation mindset, we 
need to get back to our bread and butter which is combined 
arms. We have asked for a, what we call a Marine Expeditionary 
Brigade-size force, which is three infantry battalions 
maneuvering on the ground with aviational logistics. And we 
need that land expansion to be able to do that.
    The record of decision, they made a choice about a year or 
so ago, saying that we could use both, not only a shared use 
area but a use that is specifically for us. So we are excited 
about it. We hope that that is able to come through and we ask 
for Congress's support on it.
    Mrs. Roby. Thank you very much.
    And Admiral Greenert, I was in Mobile 2 weeks ago and I had 
the opportunity to tour and spend time on the JHSV, the joint 
high-speed vessel, that is currently in production. And so if 
you could, would you just give us your vision about how you see 
use and utilization of this in your fleet?
    Admiral Greenert. Thank you, ma'am. I will.
    The joint high-speed vessel, a catamaran, is about speed 
and volume, with fuel efficiency, if you will. So what we have 
is an opportunity. There will be 10 produced. We will deploy 
them. They will be forward-deployed, so on this little chartlet 
out there, they will be out around the world. Civilian mariners 
will operate them, but we will have a military detachment on 
board, somewhere around 40 people.
    But what is extraordinary about it is it has got a lot of 
volume. You can move a lot of vehicles on board. So, as General 
Amos was saying earlier, how do we tailor the force of sailors 
and marines to do that. It is fast. You can put some armament 
on it and it can do counter-piracy operations, counter-drug 
operations. It can do things that we weren't sure about 
whenever we started.
    It has a good medical facility, so it can do theater-
security cooperation. So it resonates with Southern Command. It 
resonates with Africa Command. And it also has--can carry 300 
soldiers or marines on board with gear. Now, this isn't 
overnight. This is place to place. But if you are going 40 
knots, you can get a lot of places in a short amount of time.
    Add on top of that, it has--its been--the backbone is in 
there for command and control. So it can direct operations. And 
I would see perhaps mine counter-measure operations, counter-
smuggling, that sort of thing where you bring in small boats 
and direct them around. It is a pretty agile vessel, ma'am.
    Mrs. Roby. Thank you. I yield back.
    Mr. Nugent. Thank you.
    Ms. Speier is recognized for 5 minutes.
    Ms. Speier. Thank you, Mr. Chairman.
    Thank you, Secretary Mabus, Admiral Greenert, and General 
Amos, for your extraordinary leadership on behalf of our 
country.
    I would like to start, Secretary Mabus, by focusing on the 
Littoral Combat Ship program. Congress was initially promised a 
speedy, flexible, lightly manned and cheap ship. But as you 
know, we have discovered that the module concept is not as 
flexible as we thought it would be, and the manning 
requirements have had to be substantially revised, all of which 
is resulting in a ship that has doubled in price.
    It also concerns me that we have had problems with 
corrosion and doors that wouldn't close. And I am very 
concerned that taxpayers are not getting the kind of ship that 
they should be getting. And I am wondering, from your 
perspective, is it time to re-think moving forward with the 
LCS?
    Secretary Mabus. Congresswoman, straightforward answer to 
your question is absolutely not. The LCS program had some 
problems in the early part of the last decade. But since I have 
been there, and I will give you a very quick snapshot, when I 
got there, we had one ship in the water of each variant. They 
were research ships. They were the first of the class. They 
were experimental ships. There was one of each class being 
built.
    We put three more out for bids and the bids came in 
absolutely unacceptably high. So I made the decision that while 
we wanted both versions, each one brought something unique. 
Both met all our requirements. And so they were going to have 
to compete based partly or primarily on price.
    Over the course of--and we would award one shipbuilder 10 
ships over 5 years. We would get a technical package from that 
shipbuilder. We would then award nine ships to a second 
shipbuilder to keep competition in the program, but only one 
version.
    The prices came down by 40 percent over the course of that 
competition. I came back to Congress, asked for permission, and 
Congress gave that permission to buy both ships. They are being 
bought under a block buy. They are firm, fixed-price contracts. 
We got 20 ships, 10 of each version instead of 19, and we saved 
$2.9 billion on that program.
    Ms. Speier. All right, Secretary, let me ask you this. It 
has been reported that, and I quote--``the boat deck 
configuration for both LCS types for launching and retrieving 
small boats can be quite dangerous and lead to injuries or 
fatalities.'' Are you familiar with that?
    Secretary Mabus. One of the things that the CNO has done is 
as you begin to use these ships, and LCS-1 is right now on her 
way to Singapore in our first deployment overseas. As we begin 
to use these ships, and as the concept of operations begin to 
be developed, and as we begin to do things like boat operations 
or unmanned systems operations, and in the different weapons 
systems, that are on-track today, exactly where we thought they 
would be for all three modules.
    CNO has set up the LCS Council, the Littoral Combat Ship 
Council, to take a look at any issues, come up with an 
operating concept and design, come up with the manning. And we 
still have the same core crew on LCS of 40. The weapons systems 
crew will be anywhere from 40 to 50. So we are still under 100 
sailors on that ship.
    As issues arise, this LCS Council takes a look at them, 
sees if it is a design issue; sees if it is an operational 
issue; sees how we can change it or mitigate it. The first ship 
of the class in any ship is going to have some of these issues. 
But I am confident--I am absolutely confident that we are 
meeting all those issues and that this ship is going to be one 
of the backbones of our fleet for years and years to come.
    Ms. Speier. Well, I am glad you have that kind of 
confidence. I am just reminded of the Air Force finally pulling 
the plug on an IT [information technology] project that cost 
over $1 billion, coming before Congress a number of times. 
Congress indicating its concern about it. They continued to 
say, ``Oh, no, we are going to make it work even though it is 
now 12 years in the making.'' And then finally, they pulled the 
plug. I just hope that we are not in that kind of position with 
the LCS.
    Secretary Mabus. Congresswoman, the LCS program today is 
one of our very best programs. It is coming in under budget. It 
is coming in on schedule. And it is coming in with capabilities 
that we have to have.
    Ms. Speier. My time is expired. Thank you.
    Mr. Nugent. I want to recognize myself.
    General Amos, I truly do commend you in what you are 
facing, particularly as it relates to this fast reaction force 
that we need to have. And what I am concerned about, from--and 
Admiral Greenert you can I am sure respond to this also--but 
when the fact that the Marine Corps I believe thought that we 
should have 38 amphibious warfare ships, amphibs, available to 
meet the demands particularly as it relates to our 
expeditionary brigades.
    But last year, if I am not mistaken, and correct me if I am 
wrong, we only had 22 of those ships actually available that 
were out at sea or could be at sea. How do we deal with that? 
Particularly--let's forget about sequestration for a minute--
when we have a need for the Marine Corps to have this fast 
reaction team, which I absolutely agree with, particularly when 
this is--and we have heard this testimony all day in regards to 
the fact that the world is not getting safer. It is getting 
more dangerous. We saw it in Benghazi, in Africa.
    How do we reconcile ourselves to the fact that with the 
shipbuilding that the Navy is talking about doing, where does 
that put the amphibs? I haven't heard any discussion in regards 
to upping the ante as it relates to how do we support the 
Marine Corps and the mission that they have.
    Admiral Greenert. Well, the way we deploy our ships and 
employ our ships is called the Fleet Response Plan. And what I 
will get you to is the numbers--why aren't the numbers out 
there. So, the Commandant, and I agree with this, has a 
requirement--the Marine Corps has a requirement, the country 
has a requirement for 33 ships to support a two-MEB joint 
force--joint forcible entry.
    At any given time, we have a certain number of ships in 
what we call a ``sustainment phase.'' And it is almost a 
conveyor belt. You are in maintenance. Then you do basic 
training, integrated training and sustainment. And so the need 
for 33--we need to have 30 ships--we commit that--available for 
a joint forcible entry operation at a certain time.
    And that is the key. You have to have them there by day X 
in a scenario that we think is appropriate. And that is what we 
benchmark against. And so when you say there might be 20 ships 
at any time, I would say: ``Well, how many can I have?'' And we 
track this daily--how many ships can I have available if called 
upon by 60 days or 45 days? And they are, again, benchmarked to 
different operations. That is what we track it against.
    We are not there at the 33, and as I have spoken before, we 
are endeavoring to get there with the help of the Congress. We 
have two LSDs [landing ship, dock] through this fiscal year 
2014. And we are working to build the amphib ships to get 
there.
    One of the items is, and if you said to me, ``Hey, Admiral, 
what is your number one shipbuilding concern at this time?'' It 
is completion of and integration of the ship--of our amphibious 
shipbuilding.
    Mr. Nugent. General Amos, with 22 ships that were available 
last year, what position does that put you in in fielding the 
force that we need to have available at any given time? Because 
we don't know--if we could plan exactly where we are going to 
be in regards to, you know, hostile actors against us, it would 
be great. But we have never been able to do that. I don't see 
that happening.
    Obviously, you have come up with a number based upon 
possible hostile scenarios in regards to having those forces 
available to meet the demands that the President may set out. 
Where does that put us if, in fact, we only had 22 ships 
available last year?
    General Amos. Congressman, the reality of availability for 
ships is a lot like airplanes. It is a lot like--a little bit 
better than my MRAPs [Mine-Resistant Ambush Protected 
vehicles], and my MRAPs are not doing bad in some cases; excuse 
me, MRAPs are probably doing better. But it is availability. 
One of the things that is happening that actually I think is a 
bright and shining light on the horizon is the new ships that 
are coming online. You remember when we built LPD 17, the San 
Antonio. It was the quality assurance issues and all that. It 
didn't--there were issues with it. It was harder to get out of 
the blocks than it should have been.
    Those have been resolved. Two weeks ago, I think I said, 
and I don't know whether you were in here, but I was down there 
when we commissioned LPD 24, which is the, you know the seven 
ships later on down the road, and it is just a beautiful ship, 
and everything works on it.
    So what we are doing is we have got a large deck being 
built at Pascagoula LHA 6, we have got LHA 7. I mean you could 
actually--it looks like a ship. We have got some in the FYDP 
that we are--that General--or Admiral Greenert and the 
Secretary of the Navy are buying. We are going to get newer 
ships. The availability will--just like an airplane, a new 
airplane, will actually be better than some of our 25- and 30-
year-old ships. I anticipate the availability will go up. 
Because also, and I want to give credit where credit is due. My 
shipmate here has actually kind of put his money where his 
mouth is, so to speak.
    He has put money in ship availability to repair and 
maintenance. He is fixing some things that maybe should have 
been fixed some time ago, and he is working hard at it. So the 
truth of the matter is we are where we are, Congressman. If 
something happens, we have never guessed it right as you said, 
something happens, we are going to put marines on anything we 
can. Even if it is that Italian cruise liner that was laying on 
its side off of the coast of Italy.
    We will right that baby and put marines on it, we will go 
to war. That is just what we do. But I am not trying to be 
funny here, but I am actually optimistic for the future.
    Mr. Nugent. I am glad to hear that and I am glad to see the 
cooperation, not only between the Marines and the Navy, but all 
our service warfighters. One last question, and I hear this--I 
heard General, you say this, obviously our readiness, as it 
relates to those that are deployed, and those that are near 
deployment will be at the highest level. Obviously my concern 
is for all those troops that we have sitting around, where are 
they at in the mix? Because if in fact something happens, and 
we have to muster them all out, we want to make sure that they 
are ready to go, just like the guys that are ready to go, that 
are leaving for Afghanistan, or wherever, today.
    General Amos. Congressman, the fact is they will not be as 
ready to go as those that we are training that are in the 
queue. It just--it is not going to be that way. I said a little 
bit ago that come January and February and March of 2014, those 
units that are not in the queue to get ready to go will be at a 
readiness rating of what we call, C3 and below. So, they are 
not as ready. They will go if the balloon goes, I just, I want 
to be clear about that. We will go, and we will turn out a good 
performance.
    But it will be painful. There is another--let me just give 
you an--not an anecdote, let me declare the truth of this 
thing. When the full effects of sequestration take place, as we 
roll into next year, if I take a look at my F-18 squadrons that 
I have. And remember I am flying, I have got legacy F-18 
squadrons now, and we are trying to milk those along until we 
stand up the F-35s. Here are some numbers. We have 257 F-18s 
today that have USMC [United States Marine Corps] painted on 
the side of them; 102 of those, 40 percent, are at depot-level 
maintenance as we meet here this morning.
    There are 23 that are scheduled to go into depot-level 
maintenance towards the third and fourth quarter of this year. 
Furlough happens. That is 11 percent of lost workdays in that 
depot. So I just--you know you need to understand that because 
what that is going to result in, it is going to result in more 
airplanes being in depot in an out of reporting status and not 
being repaired to the number of 125.
    So, 125 of 257 Hornets in the Marine Corps will be in, what 
we call, out of reporting status. So that is almost half. If 
you take the six squadrons that I have forward deployed in 
Iwankuni, in the Persian Gulf and on U.S. Navy aircraft 
carriers, that leaves--and then you take the airplanes out of 
the reporting status, out of that mix, I will have about, no 
more than six airplanes per squadron back home in the United 
States of America. That rates a 12-plane squadron. I grew up 
flying Phantoms when we would get 10 or 11 hours of flight time 
per month. And we thought actually it was pretty okay.
    Those were pretty austere times. We are headed to times 
that will be less than that for those squadrons that are back 
home.
    Mr. Nugent. Just one comment, and then I am going to 
recognize Mr. Andrews. Just if you would, for the record, it is 
the--I think extremely important for this committee, but other 
Members of Congress to know exactly where we are going to be 
when sequestration, you know the ugliness actually hits us next 
year. Because if we don't know that, what I am concerned about 
is that we have Members that are just going to kind of march 
along and say everything is going to be okay. Because what I am 
hearing, it is not going to be okay. And I want to make sure 
that every soldier, marine, sailor that we have out there has 
the best possible training, best possible equipment. As a 
parent of three soldiers, I want to make sure that they have 
the best possibility of surviving anything that we may throw 
them into, and the same goes for our marines and sailors. So I 
will now recognize Mr. Andrews.
    Mr. Andrews. Thank you Mr. Chairman, I thank you gentleman 
for your service to our country. Heartened this morning to hear 
that some of our Navy bomb personnel have been deployed to 
Boston to try to help with that situation. I know they will do 
a great job. In the wake of the Oklahoma City bombing in 1995, 
then President Clinton talked about what had just happened. He 
said, the threat is not isolated. And you must not believe it 
is. We see that threat again in the bombing of the World Trade 
Center in New York, 1993, he was referring to. In the nerve gas 
attack in the Tokyo subway. The terrorist assault on innocent 
citizens in the Middle East.
    He said then, we see it even on the Internet where people 
exchange information about bombs and terrorism even as children 
learn from sources all over the world. He goes on to say that, 
like the vigilant generations that brought us victory in World 
War II, we must stand our ground. In this high-tech world, we 
must make sure that we have the high-tech tools to confront the 
high-tech forces of destruction and evil. Pretty prescient 
given some of the things that have happened since 1995. 
Something else has happened here in the last 10 years that is 
not your responsibility, it is ours.
    Not yours, it is ours. For every $100 we were spending in 
2004 on research and development, we are now spending $85.00. 
If you adjust the spending for inflation in the RDT&E 
[research, development, test and evaluation] lines, we are 
about 15 percent shy of where we were 10 years ago. Now again, 
that is because of decisions people on this side of the podium 
made, not that you made. I wonder if you could tell us in this 
unclassified setting, given the rules that we have, what we are 
giving up in that 15 percent? What research and development 
aren't we doing today, that you think we should be doing today 
that would protect us against risks that perhaps we can't see 
10 or 20 years down the road? What are we giving up?
    Secretary Mabus. Congressman, I think the statement that 
you made that we just don't know what those risks are going to 
be. We don't know what is going to be required. And I think 
more than what specific R&D that we are giving up, is we are 
stretching out the time. We are having to--we are not being 
able to turn as fast in some of the R&D capabilities that we 
have.
    And it is one of the things that we are fighting, working 
hard to protect the most. Because two things give us our combat 
edge. One is our people, and the amount of responsibility that 
we push down and expect great performance, and get every single 
time.
    But second is our technological superiority. And because of 
that, in the budgets going forward, we have tried to the 
maximum extent possible to protect and in any case that is 
possible, increase research and development into new cutting-
edge weapons, like the directed energy weapon.
    Mr. Andrews. What are we doing we can talk about in an 
unclassified setting, about electronic pulse shock? In other 
words, something would take down our computer systems. What are 
we doing about that potential problem?
    Admiral Greenert. Well what, we are looking at hardening 
what we have. In other words, that they can recover. That the 
systems can withstand in an EMP [electro-magnetic pulse] and 
then recover. So you have kind of hit the nail on the head, 
Congressman. Okay, so we are doing something to undo in a 
defensive nature, what is done to us. I would comment, I would 
like to see more investment in asymmetric capabilities that we 
have. Things that we are unique on. The Secretary mentioned 
one, people. To make our people more effective at what they do.
    And the Commandant is all over this for the Marine Corps. 
The electromagnetic spectrum to me is somewhere that we have 
fallen behind. We did it purposely because we had no equal in 
that arena, and we were unchallenged. Well, we are challenged 
today, and we are behind. So I would like to see a lot more in 
there. The undersea domain is ours. We have it, we own it, we 
have got to keep it. We need unmanned autonomous vehicles, but 
we need the propulsion system in there. It is coming along 
slowly.
    Mr. Andrews. I see my time is almost expired. I appreciate 
that. I would simply say, and it is probably appropriate to say 
this given the fact that only two members I think are here now. 
Everybody here has their pocket speech about base closings and 
how much they deplore them and how terrible it is. And I don't 
relish base closings. I have been through them in my district. 
But the members of this committee have to take an honest look 
at the trade-off between excess overhead. And look, everybody 
thinks the excess overhead is in somebody else's district, I 
get that.
    But we have to take an honest look between excess overhead, 
and what we are giving up by losing the RDT&E edge that I think 
is perilous to lose. And I appreciate the fact you are 
struggling with limited dollars. We have made that decision, 
not you. But this is an area where I think we will deeply 
regret not staying current, not staying ahead of the rest of 
the world if we don't make some unpleasant choices about base 
structure. I appreciate your time, and attention.
    Mr. Nugent. Mr. Andrews, thank you very much for your 
comments. Secretary Mabus, Admiral Greenert, and General Amos, 
we really do appreciate you appearing in front of this 
committee. On behalf of the chairman, seeing no other members 
present, the committee stands adjourned.
    [Whereupon, at 12:48 p.m., the committee was adjourned.]



=======================================================================




                            A P P E N D I X

                             April 16, 2013

=======================================================================





=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 16, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 80757.001
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.002
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.003
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.004
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.005
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.006
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.007
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.008
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.009
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.010
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.011
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.012
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.013
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.014
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.015
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.016
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.017
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.018
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.019
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.020
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.021
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.022
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.023
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.024
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.025
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.026
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.027
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.028
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.029
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.030
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.031
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.032
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.033
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.034
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.035
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.036
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.037
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.038
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.039
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.040
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.041
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.042
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.043
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.044
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.045
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.046
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.047
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.303
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.049
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.050
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.051
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.052
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.053
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.054
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.055
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.056
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.057
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.058
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.059
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.060
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.061
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.062
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.063
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.064
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.065
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.066
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.067
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.068
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.069
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.070
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.071
    
    .eps<greek-l>no graphics 72 or 73 deg.[GRAPHIC] [TIFF OMITTED] 80757.074
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.075
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.076
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.077
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.078
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.079
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.080
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.081
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.082
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.083
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.084
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.085
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.086
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.087
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.088
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.089
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.090
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.091
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.092
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.093
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.094
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.095
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.096
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.097
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.098
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.099
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.100
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.101
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.102
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.103
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.104
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.105
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.106
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.107
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.108
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.109
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.110
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.111
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.112
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.113
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.114
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.115
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.116
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.117
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.118
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.119
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.120
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.121
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.122
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.123
    
.eps?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 16, 2013

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] 80757.124
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.125
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.126
    
    .eps[GRAPHIC] [TIFF OMITTED] 80757.127
    
.eps?

      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 16, 2013

=======================================================================

      
                  QUESTIONS SUBMITTED BY MR. LANGEVIN

    Mr. Langevin. Secretary Mabus, looking at the FY14 budget, are we 
resourcing adequately in order to operate within the cyber domain and 
ensure our national interests are protected? Does the Navy require 
additional authorities in order to educate, attract, and retain the 
very best cyber operators?
    Additionally, with regard to cyber, do you feel that we have 
reached the proper balance with regard to what capabilities and 
responsibilities rest with 10th Fleet, CYBERCOM, and the regional 
combatant commanders?
    Secretary Mabus. The FY14 Budget sufficiently resourced Navy's 
aggressive and balanced approach to build our cyberspace operations 
capability. Navy is committed to providing nearly 1750 personnel in 
support of the U.S. Cyber Command (USCC) Cyber Force Model build 
through FY16. These forces will be allocated to support National, DoD, 
Combatant Command and Service operational requirements, and will be 
trained to USCC standards. In addition, Navy is committed to the 
improvement of Service-specific cyberspace capabilities (e.g. Computer 
Network Defense afloat) with a corresponding workforce that is balanced 
in both manning and skill levels, and equipped with the necessary tools 
to achieve success within the cyber domain.
    The Navy continues to coordinate with the Office of the Secretary 
of Defense, USCC, and the National Security Agency to develop standards 
to recruit, train, and position the cyber workforce to make cyberspace 
operations a key component of maritime operations. Navy has also taken 
advantage of its unique ability to leverage the operational forces 
across the Information Dominance Corps to aggressively increase 
capacity, capability and expertise in the cyber domain in support of 
National, Theater, and Fleet missions. Because of these efforts the 
Navy does not require additional authorities.
    A rapidly evolving cyber environment, unconstrained by global 
boundaries, creates unique challenges to traditional military 
warfighting integration, synchronization, coordination and 
deconfliction. As such, Navy's operational arms at Fleet Cyber Command/
Commander 10th Fleet and Fleet Forces Command continue to work closely 
with USCC and regional Combatant Commanders to build and support a 
common understanding and appropriate balancing of cyber capabilities 
and defined lanes of responsibility. This will ensure efficient and 
effective operationalization and employment of Navy's cyber forces 
across the spectrum of military operations.
    Mr. Langevin. Admiral, can you speak to the investments the Navy is 
making in Unmanned Undersea Vehicles, and what those mean to the Navy's 
ability to persist in the restricted environments of the future?
    Admiral Greenert. For Large Displacement Unmanned Undersea Vehicles 
(LDUUVs), the Office of Naval Research (ONR) invested $42 million 
toward Research and Development (R&D) in autonomy and endurance in 
FY12. PB13 contained $45 million for ONR, and $7 million for Program 
Executive Office Littoral Combat Ships to commence acquisition 
activities focused on the conduct of an Analysis of Alternatives. PB14 
includes $39 million for technology maturation and $12.2 million for 
acquisition. $33.8M has been invested in research, development, test, 
and evaluation to date for the Littoral Battlespace Sensing-UUV system 
while PB14 contains $9.6M for procurement. For the Persistent Littoral 
Undersea Surveillance (PLUS) system, $9.0 million has been invested for 
maturation and fleet transition.
    Unmanned Undersea Vehicles (UUVs) are a critical component of the 
future Navy Force. They augment manned undersea platforms by conducting 
dull, dirty, dangerous, and distant operations, thus freeing up more 
valuable manned assets for higher priority missions. UUVs provide 
capable, minimally manned, and relatively low cost alternatives to 
operate forward through persistent undersea operations, including:
    <bullet>  Reduced operational risk (i.e., removing the warfighter 
from harm's way).
    <bullet>  Improved situational awareness in forward areas or an 
Anti-Access/Area Denial environment since they can reach areas 
inaccessible to manned platforms.
    <bullet>  Operation of missions in areas inaccessible by manned 
platforms or especially hazardous to personnel.
    <bullet>  Operation of lower priority missions that allow manned 
platforms to focus on higher priority tasking.
    <bullet>  Delivery to Operational Commanders of greater tactical 
flexibility in scheduling (reduced number of) assets.
    LDUUV's long endurance, advanced autonomy, and multi-mission 
modular capabilities allow it to operate autonomously or provide 
support to manned undersea systems. PLUS' persistent undersea presence 
provides valuable Anti-Submarine Warfare information to Combatant 
Commanders.
    Mr. Langevin. Admiral, battlespace limitations within anti-access/
area-denial environments are likely to place a premium on particular 
assets, technologies, and competencies, particularly in the Asia-
Pacific region where there is a significant proliferation of 
submarines, advanced tactical fighters, and ballistic missiles, as well 
as many electronic warfare challenges. Can you speak to how the Navy is 
resourcing, training, and investing in research and development in 
order to meet those challenges, particularly with regards to directed 
energy, undersea warfare, and advanced tactics, techniques, and 
procedures?
    Admiral Greenert. We continue to evolve our systems and tactics, 
techniques, and procedures (TTPs) to counter predicted threats in anti-
access, area-denial (A2/AD) environments.
    For directed energy, the Office of Naval Research's (ONR's) Solid 
State Laser-Quick Response Capability (SSL-QRC) is currently being 
deployed. SSL-QRC will support the ONR Solid State Laser Technology 
Maturation program which will develop and demonstrate a 100kw or 
greater laser prototype. The first demonstration of this program will 
deploy on USS PONCE (AFSB-I) in 2014.
    For Undersea Warfare the Navy is acquiring and fielding a number of 
different Unmanned Undersea Vehicle (UUV) systems: the Littoral 
Battlespace Sensing (LBS) UUV and Glider, the Surface Mine 
Countermeasure Knifefish UUV, and the Mk 18 Mine Countermeasure UUV. 
The Persistent Littoral Undersea Surveillance (PLUS) System will add to 
our Anti-Submarine Warfare (ASW) capability. The Large Displacement UUV 
(LDUUV) will be a modular, long endurance autonomous platform capable 
of conducting multiple missions to include: intelligence, surveillance, 
and reconnaissance; minesweeping; and ASW. The Navy's biggest 
challenges in the full development of UUVs remain endurance, autonomy, 
ship integration, and energy certification. The Advanced Undersea 
Weapon System (AUWS) will be designed to deliver and distribute 
targeting sensors or autonomous weapons into chokepoints or channels to 
neutralize maritime threats for extended periods. ONR supports research 
to improve anti-submarine surveillance, detection, and attack 
capabilities against quiet adversary submarines operating in noisy and 
cluttered shallow water environments, enabling new undersea weapon TTPs 
and training.
    ONR's Naval Air Warfare goal is to develop technologies, TTPs, and 
training to expand Naval weapon system stand-off ranges and reduce 
engagement timelines to enable rapid, precise, assured defeat of moving 
land, sea and air targets.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. ROGERS
    Mr. Rogers. Secretary Mabus and Admiral Greenert, has the Navy 
programmed funds to participate in the interoperable warhead W78/W88 
life extension study being conducted in partnership with the National 
Nuclear Security Administration (NNSA) and the Air Force?
    a. Do you have any concerns with NNSA's ability to successfully 
execute this program?
    b. Will the program preserve an option to conduct a straight W88 
life extension if the interoperable warhead option fails to happen?
    Secretary Mabus and Admiral Greenert. The Navy is requesting 
funding in the PB14 submission to support this study and is reviewing 
reprogramming options to commence this effort in FY13.
    The Department of the Navy supports the Nuclear Weapons Council 
decision to consider an interoperable warhead in the W78/88-1 Life 
Extension Program (LEP) study. This effort has fiscal and technical 
challenges, but has the potential to achieve long-term national cost 
savings.
    The Navy's current planning efforts reserve the option to develop a 
standalone W88-1 LEP. This option would not need to start until the 
early 2020s.
    Mr. Rogers. Secretary Mabus and Admiral Greenert, the joint 
explanatory statement of the conference report accompanying the FY13 
NDAA requires the Navy and Air Force to brief the congressional defense 
committees later this year on efforts that can be jointly undertaken 
and cost-shared. Do you see opportunities for strategic collaboration 
or commonality between the Air Force and Navy for sustainment of 
ballistic missile capability in the long-term?
    a. How might this reduce cost across the Service's respective 
ballistic missile programs?
    b. Would commonality between the two ballistic missile programs 
increase risk that a technical failure would ground both Navy and Air 
Force ballistic missiles simultaneously? Have these risks been 
assessed? How [would] DOD manage such risks?
    Secretary Mabus and Admiral Greenert. Yes, there are potential 
opportunities for strategic collaboration or commonality between the 
Air Force and the Navy for sustainment of ballistic missile systems, 
and we are investigating those opportunities. Navy and the Air Force 
are both addressing the challenges of sustaining aging strategic weapon 
systems and have begun to work collaboratively to ensure these 
capabilities are retained in the long-term to meet our requirements and 
are seeking opportunities to leverage technologies and make the best 
use of scarce resources. The Navy and the Air Force have established an 
Executive Steering Group to identify and investigate potential 
collaboration opportunities and oversee collaborative investments for 
sustainment of our strategic systems. As a part of this effort, 
technology area working groups have been established to study 
collaboration opportunities in the areas of Reentry, Guidance, 
Propulsion, Launcher, Radiation Hardened Electronics, Ground Test and 
Flight Test systems, and Nuclear Weapons Security/Surety.
    A) While we are in the initial stages of addressing collaboration 
opportunities, we see potential to reduce costs in the future. Navy is 
also assisting the Air Force in investigating the potential for 
including commonality in the intercontinental ballistic missile (ICBM) 
follow-on as a part of the ground-based strategic deterrent (GBSD) 
analysis of alternatives (AoA). B) We are assessing the spectrum of 
potential commonality with the goal of using commonality where 
appropriate while ensuring essential diversity where needed to reduce 
the risk of a technical failure impacting both Navy and Air Force 
ballistic missile systems.
    Mr. Rogers. Secretary Mabus and Admiral Greenert, the Ohio-class 
replacement submarines will provide the nation with its critical core 
of sea-based deterrence capability until at least 2080. These 
submarines are being designed to meet potential threats seven decades 
from now. With regards to the missiles and the entire strategic weapon 
system, how is the Navy positioning itself within the FYDP and beyond 
to maintain the weapon system to meet the hull life of the Ohio-class 
replacement? How long do we expect the D5 system to be sustained and 
what are we looking at to replace it? When might this system be 
fielded?
    Secretary Mabus and Admiral Greenert. The Navy is extending the 
life of the Trident II (D5) strategic weapon system (SWS) to match the 
extended service life of the current OHIO Class SSBNs. The OHIO Class 
was extended by 12 years (42-year service life) and will begin 
decommissioning at one SSBN per year in 2027. The D5 Life Extension 
(LE) program will maintain this strategic weapon system in service 
until at least 2042 and, pending additional analysis, possibly as far 
as the 2060s.
    The D5 LE program is executing on schedule and within budget. The 
program consists of the purchase of 108 new missiles and alteration 
kits to modernize the remaining inventory with a new guidance system 
and missile electronics components. Additionally, the Navy has 
continued to fund the low-rate production of solid rocket motors to 
prevent the age-out of the current inventory. The D5LE is scheduled to 
meet initial operating capability in 2017.
    Plans to support OHIO Replacement long-term requirements will be 
developed in the future. As the D5 LE program is fielded within the 
SSBN fleet, the Navy will further analyze the SWS service life. In 
parallel, the Navy is evaluating follow-on program replacement options 
in collaboration with the Air Force. These efforts will help ensure 
that the Navy continues to provide the required strategic capabilities 
to maintain the sea-based leg of the triad.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN
    Mr. Wittman. Secretary Mabus, what are the operational impacts of 
civilian furloughs on fleet maintenance activities particularly in 
light of civilian hiring freezes and reduction to overtime work?
    Secretary Mabus. Furloughs, combined with the ongoing hiring freeze 
and overtime restrictions, will have an extended impact on Fleet 
maintenance capacity.
    The combination of the civilian hiring freeze, overtime 
restrictions, and 11 furlough days at the aviation depots is expected 
to delay the delivery of approximately 66 aircraft and 370 engines and 
modules from FY13 into FY14. This equates to 80% of a carrier air wing 
and will result in fewer aircraft ready for tasking and a commensurate 
reduction in flight hours for non-deployed units. Recovery of the 
delayed work will drive additional unbudgeted costs. The Naval 
Shipyards have been exempted from the furlough, but capacity is still 
being impacted by overtime restrictions and the hiring freeze. This 
capacity reduction will result in maintenance availability completion 
delays.
    If the hiring freeze continues through the end of FY13, it will 
prevent the Naval Shipyards from hiring approximately 1,030 production 
artisans and engineers. FY13 capacity would be reduced by 87,000 man 
days, resulting in a two month delay for one Aircraft Carrier 
maintenance availability; a two month delay for one Ballistic Missile 
Submarine maintenance availability; and a total of eight month delay 
for two Fast Attack Submarine maintenance availabilities.
    Mr. Wittman. Secretary Mabus, in light of the fact that the Navy 
has spent the last six years operating a significant part of the force 
above a long-term sustainable tempo level, as the DOD draws down in 
Afghanistan and re-balances to the Pacific, a predominantly maritime 
environment, will the Navy be able to sustain its operations and meet 
enduring GFMAP requirements with base funding? And, by doing so, what 
risk will you assume?
    Secretary Mabus. Navy will source 100% of SecDef adjudicated 
requirements. Force capacity prevents sourcing 100% of Combatant 
Commander (CCDR) demand. Navy uses base funding to sustain the presence 
ordered in the Global Force Management Allocation Plan (GFMAP) base 
order. Operations beyond the base order will delay maintenance periods 
and decrease training opportunities, effectively reducing the long-term 
readiness of the force.
    Mr. Wittman. Admiral Greenert, can you briefly describe the plan 
for the replacement of the aging TAO and LSD class? What is the current 
vision for these platforms? Additionally, can you please touch on 
whether there is any consideration for hull commonality in future 
designs or commonality in ops and sustainability with the HM&E of the 
ships with what is currently operated in the fleet?
    Admiral Greenert. An Analysis of Alternatives (AoA) is in progress 
for the LX(R) program to evaluate alternatives for the hull-form to 
fill capability gaps due to upcoming LSD 41/49 class ship retirements. 
The operation of the LX(R) platform will be consistent with the 
existing Amphibious Ready Group/Marine Expeditionary Unit missions.
    Two of six options currently being evaluated in the AoA utilize 
existing hull-forms in the fleet today: an LPD 17 variant and an MLP 
variant. Both of these options could provide some commonality 
throughout the amphibious fleet.
    The AoA is expected to be complete in August 2013. Until the AoA is 
complete, it is too early to speculate on any details of HM&E 
commonality between LX(R) and existing assets in the fleet today. The 
preliminary and contract design phases will offer additional 
granularity to analyze LX(R) HM&E system commonality.
    Mr. Wittman. Admiral Greenert, you have now started to begin the 
needed scheduled maintenance on our fleet. (1) Are there any ships that 
you anticipate completely skipping a planned maintenance period, if so 
what is the long term impact of that decision? And (2) Do you plan to 
have the ships available to deploy and maintain the needed forward 
presence for the foreseeable future, perhaps the next 5 years?
    Admiral Greenert. Navy does not intend to completely skip any 
planned ship maintenance periods. Navy's PB14 request, including 
projected OCO levels, fully funds ship maintenance to execute all 
planned FY14 availabilities. It also funds the revised Class 
Maintenance Plan requirements to reset the material condition of 
surface ships undergoing docking availabilities in FY14.
    We plan to fund and execute the final eight scheduled FY13 surface 
ship availabilities supported in part by reprogramming currently under 
review by Congress. Any deferred FY13 availabilities will be 
reconsidered for scheduling and funding in FY14. While this might 
create a bow wave of maintenance that could take years to recover and 
higher costs to complete, this is preferable to completely skipping 
availabilities.
    Navy will deploy fully ready forces to the Combatant Commanders in 
support of the FY14 Global Force Management Allocation Plan (GFMAP). 
While the uncertainties of the ongoing sequester and future budgets 
could significantly impact our Operations and Maintenance funding 
levels, we will continue to prioritize the readiness of deployed and 
next-to-deploy forces. Any degradation to operational readiness will be 
taken in non-deployed forces to the maximum extent possible. This will 
best preserve our ability to support the adjudicated GFMAP in the near 
term, but will impact our capacity to respond to contingencies or to 
emergent Requests for Forces.
    Mr. Wittman. General Amos, how do you measure readiness and what 
impacts will sequestration have on the Marine Corps' ability to 
maintain acceptable readiness levels? Can you briefly describe the 
current risks you are accepting in the force to maintain a combat ready 
expeditionary force?
    General Amos. The Marine Corps measures the long-term health and 
readiness of its force by balancing resources across five broad 
pillars: 1. High Quality People; 2. Unit Readiness; 3. Capability and 
Capacity to Meet Requirements; 4. Infrastructure Sustainment; and 5. 
Equipment Modernization. Maintaining balance across all five of pillars 
is critical to achieving and sustaining Marine Corps readiness. Given 
the impacts of sequestration, the Corps is being forced to take actions 
to preserve its short-term readiness at the expense of long term 
sustainment, investments and readiness. Most recently I have been 
forced to transfer facilities sustainment funding to support critical 
operations and equipment maintenance accounts. Over time, these actions 
will create an imbalance across our readiness pillars that result in 
both near- and long-term readiness deficits.
    As the nation prepares for an uncertain future, its expeditionary 
Marine forces provide a highly-utilitarian capability, effective in a 
wide range of scenarios. Marines remain a cost-effective hedge against 
the unexpected, providing a national ``insurance policy'' against 
strategic surprise. The Marine Corps remains responsive to its 
Congressional mandate to be the ``most ready when the nation is least 
ready.'' As such, we will preserve the readiness of our Marines engaged 
in combat--we will keep deploying units fully manned, trained and 
equipped--and we will do our best to have the resources necessary for 
the next mission while preparing for the future. Despite the 
constrained funding resulting from sequestration, the Marine Corps will 
meet near-term commitments for deployed and next-to-deploy forces, 
however we will continue to take risk as this comes at the cost on non-
deployed Marine units. Currently, 65 percent of non-deployed units are 
experiencing degraded readiness due to portions of their equipment 
being redistributed to support units deploying forward. While necessary 
in times of crisis, this commitment of our `seed corn' to current 
contingencies degrades our ability to train and constitute ready units 
for their full range of missions over time. Unbalanced readiness across 
the force increases risk to timely response to unexpected crises or 
large-scale contingencies. We will continue to emphasize our reset and 
reconstitution efforts that cost-effectively restore combat equipment 
and return it to units for training.
    Mr. Wittman. General Amos, how imperative is the reset and 
reconstitution of the Marine Corps? How does your reset plan support 
the new strategic guidance's directed role for the Marine Corps? How 
will reset be impacted by sequestration? How long will it take to 
recover?
    General Amos. The Marine Corps plays a special role in protecting 
our Nation. We are America's Crisis Response Force--the Nation's 
insurance policy. We must always be ready. For most of the past decade, 
the Corps has been engaged in combat operations that have placed a 
tremendous strain on our ground equipment. For this reason, resetting 
and reconstituting our Corps remains my top priority--we must swiftly 
repair and modernize equipment, while divesting obsolete inventory. 
These two complementary efforts, reset, and reconstitution are 
inexorably linked and must be conducted without operational pause. It 
is imperative that we align reconstitution with reset actions, force 
structure requirements, acquisition plans and maintenance strategies.
    Our Reset Strategy fully supports my strategic guidance to maintain 
a global crisis response capability that ensures readiness of ground 
equipment. Although the purpose of the Reset Strategy is to create 
unity of effort across the Marine Corps with respect to equipment reset 
planning and execution from Afghanistan, it similarly supports my 
direction to quickly rebalance to the Pacific, and ensure reset and 
reconstitution actions are oriented to protect the long-term health and 
readiness of the warfighter.
    With respect to sequestration, potential deferments and 
cancellations of planned maintenance could negatively impact readiness 
and operational capability. This situation could also result in a 
reduction and delay of equipment procurement contract orders. While we 
remain on schedule with our reset plan for the remainder of FY13, 
sequestration impacts in FY14 and out could reduce depot workload 
capability, impact planned procurement actions and cause delay of 
reset. Such a delay would hinder the Marine Corps' ability to ``reset 
and reconstitute in-stride'' by FY17.
    The Marine Corps has a statutory responsibility to be the most 
ready when the Nation is least ready. As such, we will preserve the 
readiness of our Marines engaged in combat--we will keep deploying 
units fully manned, trained and equipped--and we will do our best to 
have the resources necessary for the next mission while preparing for 
the future.
                                 ______
                                 
                 QUESTIONS SUBMITTED BY MR. BRIDENSTINE
    Mr. Bridenstine. I am concerned about the recent cancellation of 
multiple ship deployments to the U.S. Southern Command Area of 
Responsibility. Is sequestration the driving factor behind these short-
term cancellations? Does the Navy plan to increase its presence in 
SOUTHCOM in the future? Please describe the Navy's long-term laydown 
for SOUTHCOM.
    Admiral Greenert. Sequestration is the driving factor behind recent 
cancellations/curtailment of FY13 deployments to SOUTHCOM. Six 
deployments were cancelled and one unit redeployed early. These seven 
deployments represent 50% of the FY13 Secretary of Defense ordered Navy 
deployments to SOUTHCOM.
    The Global Force Management Allocation Plan (GFMAP) is a Joint 
Staff led process to determine sourcing solutions to Combatant 
Commander Requests for Forces (demand). Navy, as part of a larger Joint 
Staff led effort, is currently evaluating potential Sequestration-
related impacts to the FY14 GFMAP.
    Long-term sourcing to SOUTHCOM is difficult to predict. Combatant 
Commander demand for assets routinely exceeds Navy's capacity to 
source. SOUTHCOM's Request for Forces must be evaluated against global 
Combatant Commander demand and global priorities, and the Service's 
capacity to source these requests as part of the GFMAP process.
    In the future, new platforms like the Joint High Speed Vessel 
(JHSV), the Littoral Combat Ship (LCS) and existing Patrol Coastal (PC) 
ships will operate from bases like Mayport, FL to support the 
partnership development and maritime security missions that we perform 
in SOUTHCOM today. Use of ships like these will enable the Navy to 
maintain a more persistent presence, while high end ships (e.g. 
destroyers or amphibious ships) are drawn to more challenging missions 
in other theaters.
    Mr. Bridenstine. How much money do you project the E2-D Advanced 
Hawkeye multiyear procurement will save taxpayers? Please also comment 
on what threats make the procurement of E2-Ds so important?
    Admiral Greenert. PB-14 includes a Multi-Year Procurement for 32 
aircraft (FY14-18) that saves the Navy an estimated $522.8M and 
stabilizes the production line to support an efficient E-2C to E-2D 
Fleet transition plan.
    Procurement of E-2D is important because, in the past decade, Anti-
Access Area Denial (A2AD) threats have increased as a result of 
accelerated advanced weapon and platform development, the introduction 
of low-observable technology and supersonic weapons, and advances in 
research and development for electronic jamming equipment to deny or 
deceive U.S. Navy detection capabilities. The E-2D APY-9 radar has 
advanced waveform and Space Time Adaptive Processing (STAP) techniques 
that provide enhanced surveillance and tracking against advanced threat 
aircraft and sea-skimming Coastal Defense Cruise Missiles (CDCM), which 
are a rapidly growing threat for our Carrier Strike Groups (CSG). E-2D 
also provides persistent, elevated track data as part of Naval 
Integrated Fire Control-Counter Air (NIFC-CA). NIFC-CA extends the 
range, accuracy, and lethality of Navy fires, specifically for our 
Aegis ships with the SM-6 missile and for our F/A-18E/F aircraft with 
the AIM-120 missile.
    Mr. Bridenstine. As a member of the Tactical Air and Land Forces 
Subcommittee, I've spent a lot time monitoring the progress of the F-35 
acquisition process. The function of oversight committees, of course, 
is to focus on things like cost, schedule, and performance. However, I 
think sometimes we miss the forest for the trees. Can you both remind 
us why the Joint Strike Fighter is strategically important? How does 
the capability fit into long-term U.S. defense strategy?
    Admiral Greenert. The F-35 Lighting II will enhance the 
flexibility, power projection, and strike capabilities of future 
carrier air wings and joint task forces. The F-35 Lightning II program 
will provide a transformational family of next-generation strike 
aircraft, combining stealth and enhanced sensors that enable the 
aircraft to be more combat effective and survivable. The F-35 will be a 
``day-one'' capable strike-fighter that enables combatant commanders to 
attack targets day or night, in all weather, in highly defended areas 
of joint operations.
    The Department of the Navy will leverage the 5th generation 
capabilities of the F-35 to enter into the battlespace further than 
other aircraft in an Anti-Access/Area-Denied environment to fuse multi-
source data, process that input and link actionable targeting 
information to integrated, joint (and sometimes combined) warfighters. 
With its all-aspect low observable design, internal weapons carriage, 
and fully fused mission systems, the F-35C will complement the 
capabilities of the F/A-18E/F Super Hornet is a necessary part of the 
future carrier air wing.
    Mr. Bridenstine. As a member of the Tactical Air and Land Forces 
Subcommittee, I've spent a lot time monitoring the progress of the F-35 
acquisition process. The function of oversight committees, of course, 
is to focus on things like cost, schedule, and performance. However, I 
think sometimes we miss the forest for the trees. Can you both remind 
us why the Joint Strike Fighter is strategically important? How does 
the capability fit into long-term U.S. defense strategy?
    General Amos. The F-35 JSF is the next generation strike weapons 
system designed to meet an advanced threat, while improving lethality, 
survivability, and supportability for our tactical aircraft fleet. The 
JSF will be the cornerstone of a multi-mission joint force possessing 
improved mission flexibility and unprecedented effectiveness to engage 
and destroy both air and ground threats. The F-35 is designed to 
participate in a wide variety of operations from routine, recurring 
military activities to Major Theater War. The short take-off and 
vertical landing (STOVL) F-35B is the centerpiece tactical aviation 
aircraft needed to support our Marine Air Ground Task Force (MAGTF). 
Our requirement for expeditionary tactical aviation capabilities has 
been demonstrated repeatedly, most recently with forward operating 
bases (FOBs) in Operation Enduring Freedom (OEF). The F-35B surpasses 
our current generation of aircraft in combat effectiveness and 
survivability in the current and future threat environment.
    The capability inherent in a STOVL aircraft allows the Marine Corps 
to operate in harsh conditions and from remote locations where few 
airfields are available for conventional aircraft. The F-35B is also 
specifically designed to operate from amphibious ships--a capability 
that no other tactical fifth-generation aircraft possesses. The ability 
to employ a fifth-generation aircraft from 11 big-deck amphibious ships 
doubles the number of ``aircraft carriers'' from which the United 
States can employ fifth-generation capability. The expanded flexibility 
of STOVL capabilities operating both at-sea and from austere land bases 
is essential, especially in the Pacific. The Marine Corps will leverage 
the F-35B's sophisticated sensor suite and very low observable (VLO) 
fifth-generation strike fighter capabilities, particularly in the area 
of data collection and information dissemination, to support the MAGTF 
well beyond the abilities of current MAGTF expeditionary attack, 
strike, and electronic warfare assets. Having these capabilities in one 
aircraft provides the joint force commander and the MAGTF commander 
unprecedented strategic and operational agility.
    Marine Corps alignment with the security demands articulated in the 
2012 Strategic Guidance for the 21st Century is enhanced by the F-35's 
advancements in capabilities that do not exist in today's legacy 
fighter aircraft. The vastness of the Pacific and the diversity of 
challenges make the reach of the F-35 fleet a key element for our 21st 
century Pacific strategy.

                                  <all>

</pre></body></html>
